<html>
<title> - HIGH RISK, NO REWARD: GAO'S HIGH RISK LIST FOR INDIAN PROGRAMS</title>
<body><pre>[Senate Hearing 115-192]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-192
 
     HIGH RISK, NO REWARD: GAO'S HIGH RISK LIST FOR INDIAN PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         
         
         
         
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-354 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
        
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2017.....................................     1
Statement of Senator Cortez Masto................................    56
Statement of Senator Franken.....................................     4
Statement of Senator Heitkamp....................................    58
Statement of Senator Hoeven......................................     1
Statement of Senator Udall.......................................     3

                               Witnesses

Black, Michael S., Acting Assistant Secretary, Indian Affairs, 
  U.S. Department of the Interior................................    41
    Prepared statement...........................................    43
Buchanan, Rear Admiral Chris, Acting Director, Indian Health 
  Service, U.S. Department of Health and Human Services..........    47
    Prepared statement...........................................    48
Dearman, Tony, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................    51
    Prepared statement...........................................    52
Emrey-Arras, Melissa, Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........     5
    Prepared statement...........................................     8

                                Appendix

National Indian Education Association (NIEA), prepared statement.    71
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Rear Admiral Chris Buchanan..................................    76
    Tony Dearman.................................................    90
    Melissa Emrey-Arras..........................................    75
Response to written questions submitted by Hon. Steve Daines to:
    Tony Dearman.................................................    89
    Melissa Emrey-Arras..........................................    74
Response to written questions submitted by Hon. Tom Udall to:
    Michael Black................................................    85
    Tony Dearman.................................................    90
    Rear Admiral Michael Weahkee.................................    77


     HIGH RISK, NO REWARD: GAO'S HIGH RISK LIST FOR INDIAN PROGRAMS

                              ----------                              


                        WEDNESDAY, MAY 17, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call this hearing of the Indian Affairs 
Committee to order. This is an oversight hearing on High Risk, 
No Reward: GAO's High Risk List for Indian Programs.
    Before we get into today's hearing, I want to bring up last 
week's hearing that turned into a listening session. As the 
Committee is aware, we had witnesses travel from Arizona and 
Alaska to provide testimony on their respective bills, S. 825, 
the Southeast Alaska Regional Health Consortium Land Transfer 
Act of 2017 and S. 772, the Amber Alert Indian Country Act of 
2017.
    Since testimony and materials were received at last week's 
listening session, through no fault of their own, I would be 
wondering if there is any objection that all testimony and 
materials from last week's listening session be given the same 
weight as if the Committee held an actual legislative hearing? 
I am asking if there is any objection to that?
    Senator Udall. No objection.
    The Chairman. Good. Hearing no objection, all testimony and 
materials will be a part of the record and given the same 
weight as a legislative hearing. I thank you for that.
    Today, the Committee will examine the Government 
Accountability Office report on its High Risk List which now 
includes three Federal Indian programs.
    Every two years, at the start of a new Congress, the GAO 
compiles a list of at-risk Federal programs. These programs are 
considered high risk because they are vulnerable to fraud, 
waste, abuse or mismanagement.
    For the first time, three Indian issue areas were 
identified as high risk. These include Indian energy 
development, education and health care. In fact, the GAO tells 
us that these high risk areas have 39 open recommendations that 
have not been satisfied. These Federal programs are vitally 
important and affect many tribes and individuals across Indian 
Country.
    These programs affect the safety of school buildings and 
facilities, the quality of health care, education and the 
advancement of Indian energy development projects in Indian 
Country.
    Over the years, the GAO has done a tremendous job in 
examining and bringing to light numerous challenges facing 
these Federal Indian programs. Some of these problems are very 
troubling.
    For instance, in its 2014 report, the GAO noted that a 
single audit of a BIE school located in Arizona lost $1.7 
billion in unaccounted Federal funds. Upon further 
investigation, it was determined this money was illegally 
transferred to an offshore-bank account in Indonesia.
    The incident was referred to the Department of the 
Interior, Office of Inspector General in July 2014. The IG then 
asked for the assistance of the Federal Bureau of 
Investigation, the FBI.
    According the IG, certain bank accounts were hacked, 
enabling the unauthorized transfer of funds. How could this 
happen? Who was ultimately responsible for ensuring fraud like 
this does not happen to BIE-funded schools?
    At this point, I would ask for the first chart which 
illustrates various roles of the BIA, BIE and others in 
supporting and overseeing the BIE school facilities.
    The chart to my right shows how bureaucratic the BIE has 
become. For instance, the chart shows the multiple layers of 
offices that support and oversee BIE school facilities between 
the BIA, the Department, the Deputy Assistant Secretary for 
Management, and the BIE itself. The lack of oversight and cyber 
security is problematic but appears to be only a part of the 
problem.
    The GAO also issued a 2015 GAO report highlighting 
additional management challenges in education. Health care 
services also face significant issues. Since 2011, the 
Government Accountability Office has issued seven reports on 
the IHS, Indian Health Services. These reports related to 
improving oversight on the quality of care provided to Indian 
patients, improving the Purchased Referred Care Program, 
examining the enrollment of Indians in health care coverage 
expansion, and improving patient wait times at IHS facilities.
    One report found that Indian patients had waited six weeks 
for an initial visit with a family medicine physician. There 
appeared to be an even longer wait time of three to four months 
for an Indian patient to see an internal medicine physician.
    From data gathered from these seven reports, the GAO has 
made 14 recommendations to improve the Indian Health Services. 
These recommendations remain open. For one recommendation on 
staffing, the IHS disagreed and continues to not implement the 
GAO recommendation.
    Although the Indian Health Service has acted upon some 
recommendations, such as adopting Medicare-like rates for non-
hospital services and improving data collection for the 
Purchase Preferred Care Program, more needs to be done.
    Finally, the GAO has confirmed what Indian tribes have 
experienced about lost opportunities when they wanted to 
develop their energy resources. These problems were outlined in 
the 2015 GAO report which highlighted poor management and 
oversight of energy resources and development at the Bureau of 
Indian Affairs.
    For instance, in 2016, the GAO found many BIA offices had 
high vacancy rates for key energy development positions. 
According to the GAO, some offices reported not having staff 
with key skills to review energy-related documents.
    Perhaps this is why one tribe said it took the BIA eight 
years to approve right-of-way agreements. This tribe said these 
delays cost an estimated $95 million in lost revenue.
    Our next charts illustrate the longer approval process for 
renewable and oil and gas Indian energy projects versus private 
lands. These charts show bureaucratic approval processes for an 
Indian tribe to develop their own energy resources. This needs 
to change.
    That is why I have introduced S. 245, the Indian Tribal 
Energy Development and Self Determination Act of 2017. This 
bill directs the Department of the Interior to provide Indian 
tribes with technical assistance in planning their energy 
resource development programs.
    The legislation cuts red tape and makes it easier for 
Indian tribes to develop their own resources. It also 
streamlines the process for approving tribal energy resource 
agreements and making this process more predictable for Indian 
tribes.
    Money made from developing Indian resources, whether coal, 
oil, natural gas, wind or solar, for example, can have a 
significant impact on tribal communities. These energy projects 
could create high-paying jobs and bring revenue to tribal 
governments.
    It is unacceptable that the trustee would inhibit and even 
prevent the tribes from engaging in healthy communities or 
economic development, whether it is energy or otherwise. 
Through misplaced, misguided policies, or mismanagement, these 
agencies should be ensuring that their tribes actually have 
opportunity and that they are thriving and prosperous and not 
continuing to suffer or miss opportunities. Indian communities 
deserve better than they are receiving right now.
    I want to welcome our witnesses today. I look forward to 
hearing from all of you on these important issues.
    Before I turn to our witnesses, I want to turn to Vice 
Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for holding this 
very important oversight hearing on GAO's 2017 High Risk 
Report.
    The Federal Government has treaty and trust 
responsibilities to provide vital services, including health 
care and education, to Native American and Alaska Native 
tribes. Fulfillment of these responsibilities is both a moral 
and a legal obligation.
    As the Congress' oversight partner, the GAO plays an 
important role. It dedicates time and resources to thoroughly 
reviewing the delivery of Indian programs within the BIA, BIE 
and IHS. The review helps identify where we are falling short 
of meeting responsibilities.
    For years, GAO's work has provided evidence of something 
many tribal communities have long reported, that management 
challenges and funding barriers at these agencies reduce the 
effectiveness of tribal programs.
    Their findings shed light on the need for increased 
management oversight, infrastructure investment and workforce 
development. Their decision to include Indian programs on the 
High Risk List underscores the need to redouble this 
Committee's efforts to uncover the systemic challenges plaguing 
BIE schools, IHS facilities and the BIA's leasing program.
    When I met with Comptroller General Dodaro last week, he 
explained what the high designation means and the outcomes 
associated with such a designation. In my view, this 
designation presents the Committee with an opportunity. An 
opportunity to do better by not only recognizing the 
administrative challenges to effectively running these programs 
but also by committing resources and expertise tailored to 
address them.
    That will enable us to do our part to uphold the Federal 
Government's trust responsibilities to tribes. Budgets are a 
direct demonstration of our priorities, just as we have come 
here today to ask for more accountability from program 
administrators. Members of this Committee must join together to 
fight for more funding for schools, hospitals, teachers and 
nurses.
    I look forward to working with my colleagues on this 
Committee. Many of them, like Senator Murkowski and Chairman 
Hoeven, are fellow appropriators. That gives us multiple ways 
we can work to ensure that the Senate continues to pursue these 
important issues.
    I am hopeful that we can work together to ensure tribal 
programs achieve the success these communities deserve.
    Mr. Chairman, thank you again for holding this hearing. I 
look forward to the testimony. I thank the witnesses for being 
here today.
    The Chairman. Thank you, Vice Chairman Udall.
    I would ask if other members wish to make an opening 
statement at this point?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. I thank you both 
for calling this important hearing.
    Once I got to the Senate, I started harping on the Bug-O-
Nay-Ge-Shig School on Leech Lake Reservation in Minnesota. 
Students at the Bug-O-Nay-Ge-Shig School had to face really 
horrendous conditions in their classrooms. This was a pole 
barn. If the wind was blowing more than 30 miles an hour, they 
had to leave the school. This could be in the dead of winter 
and they had to go outside in 30 to 40 degrees below weather. 
There were sewer problems; there were rodents; there was cold 
and dangerous wiring.
    A few years ago, I convinced then Interior Department 
Secretary Sally Jewell to visit the school. Once she saw it for 
herself, saw what the teachers and students went through, she 
saw the need and I am thrilled that we are able to finally get 
the funding to replace the school.
    This took a lot of work from lawmakers, from the tribe, 
from the community there, and from the Obama Administration. 
Construction is now underway. When school starts in the fall, 
they will have a new school.
    I know there are many, many Indian reservations across the 
country that are dealing with similar school buildings in poor 
condition. It is unjust to expect Indian students to succeed 
academically if we fail to provide them with the proper 
environment to achieve that success.
    Children in Indian schools must be able to learn in a 
modern environment with modern facilities like a lab. This 
school did not have a lab. They need an environment that says 
we care about you. This is one issue we are dealing with at 
today's BIE.
    That is why I work so hard to get the resources. The Vice 
Chairman talked about the appropriators. We, on this Committee, 
owe it to Indian Country and to the Native community to talk 
about the underfunding.
    We are talking about dysfunction in the organizations but 
some of this is circular. It is very hard to get doctors to 
come to practice in Indian Country if their spouses does not 
like the schools or housing.
    I applaud the Chairman for talking about energy 
development. I finally got some money from the Loan Guarantee 
Program, the guarantee part finally happened, and we got $9 
million that can be leveraged up to about $80 million of 
activity.
    Thank you for being here today. Let us make these agencies 
work more efficiently, but let us not pretend that inadequate 
funding does not affect the ability for these agencies to 
attract the kind of people they need and attract the kind of 
people on the ground they need in Indian Country.
    Thank you, Mr. Chairman.
    The Chairman. Are there other opening statements? If not, I 
would defer to the members for their questions. I am sorry, I 
am getting ahead of myself.
    Senator Franken. Mr. Chairman, I think we should go to the 
testimony first.
    [Laughter.]
    The Chairman. We are going to follow Senator Franken's 
recommendation.
    Senator Franken. Thank you.
    The Chairman. And go to the testimony first, that is a good 
idea.
    Again, I want to welcome all of you. Thank you for being 
here. I would ask that you hold your remarks to about five 
minutes. Obviously, your full written testimony will be made a 
part of the record.
    We will start with Ms. Emrey-Arras.

          STATEMENT OF MELISSA EMREY-ARRAS, DIRECTOR, 
    EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Emrey-Arras. Thank you, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee.
    Thank you for inviting me here today to discuss a new area 
we have added to our High Risk List this year: improving 
Federal management of programs that serve tribes and their 
members.
    We added this area to our High Risk List this past February 
in response to serious problems in Federal management and 
oversight of Indian education, energy resources and health care 
programs, which were highlighted in several of our prior 
reports. Overall, our High Risk Program has served to identify 
and help resolve serious weaknesses in areas that involve 
substantial resources and provide critical services to the 
public.
    We added this new area to our High Risk List because we 
found that Interior and HHS have ineffectively managed Indian 
education, energy resources and health care programs in the 
following broad areas: one, oversight of Federal activities; 
two, collaboration and communication; three, Federal workforce 
planning; four, equipment, technology and infrastructure; and 
five, Federal agency data.
    Of the recommendations we have made to Interior and HHS on 
these issues, nearly 40 have not been implemented.
    In terms of Indian education, we found serious weaknesses 
in BIE's oversight of school spending and identified unsafe 
school conditions. For example, in a 2014 report, we found BIE 
did not have procedures and risk criteria to ensure that 
schools use Federal funds to educate students. Further, we 
found that BIE staff lacked expertise and training to 
effectively oversee school spending.
    As a result, we found several instances of misuse of funds, 
including as the Chairman noted, for one school, over $1 
million that was improperly transferred to offshore accounts.
    In 2016, we also reported that deteriorating facilities and 
equipment contributed to unsafe conditions at BIE schools. At 
one school, we found seven boilers that failed inspection 
because of safety hazards such as elevated levels of carbon 
monoxide and a natural gas leak. You can actually see the 
failed inspection tag on the poster over there.
    Turning to Indian energy issues, we found that BIA had 
inefficiently managed Indian energy resources and the energy 
development process. For example, in a June 2015 report, we 
found that although BIA's review and approval are required 
before Indian energy resources can be developed, BIA does not 
have a process or the data needed to track its review and 
response times.
    As the Chairman noted, a tribal official told us that BIA's 
review of energy-related documents took as long as eight years 
in some cases and during that time, the tribe estimates it lost 
more than $95 million in revenue.
    Moving on to Indian health care services, we have a poster 
that shows the IHS structure that will be put up momentarily. 
We found that IHS provides inadequate oversight of its 
federally-operated health care facilities and of its Purchased 
Referred Care Program.
    For example, in 2016 and 2017, we reported that IHS 
provided limited and inconsistent oversight of the timeliness 
and quality of care provided in its federally-operated 
facilities. As a result, it could not ensure that patients 
received timely quality care.
    We reported that according to IHS officials, access to 
timely primary care at some facilities was hindered by outdated 
medical and telecommunications equipment, such as analog 
mammography machines and telephones with an insufficient number 
of lines for scheduling patient appointments, as well as an 
insufficient workforce.
    We plan to continue monitoring the agency's efforts to 
address these issues and our nearly 40 open recommendations. In 
order for this area to be removed from our High Risk List, 
Interior and HHS need to show improvement on five key elements: 
leadership commitment, the capacity to resolve the risk; having 
an action plan; monitoring; and demonstrating progress. We have 
a star here that demonstrates the areas in which they need to 
show improvement to be removed from our High Risk List.
    We look forward to continuing our work with this Committee. 
My colleagues and I would be pleased to respond to any 
questions you may have. Thank you.
    [The prepared statement of Ms. Emrey-Arras follows:]

    Prepared Statement of Melissa Emrey-Arras, Director, Education, 
 Workforce, and Income Security Issues, U.S. Government Accountability 
                                 Office
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. Thank you.
    We will now turn to Acting Secretary Black.

        STATEMENT OF MICHAEL S. BLACK, ACTING ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Black. Chairman Hoeven, Vice Chairman Udall and members 
of the Committee, my name is Michael Black. I am the Acting 
Assistant Secretary for Indian Affairs at the Department of the 
Interior.
    Thank you for the opportunity to present testimony on 
behalf of the Department regarding Indian Affairs' role in the 
development of Indian energy and its recent high risk 
designation in the GAO High Risk Report issued in February.
    Let me begin by stating that the President and the 
Secretary have made a clear commitment to advancing America's 
energy independence through responsible resource development. 
Tribes play a critical role in this conversation, as energy 
development ranging from clean coal to oil and gas to wind 
creates good-paying jobs and bolsters tribal economies.
    The development of energy resources offers tribes 
opportunities that otherwise do not exist, particularly in 
rural areas. Strong tribal economies strengthen the exercise of 
tribal sovereignty and the Department continues to promote 
tribal energy development. However, as previous GAO reports 
have explained, there are many opportunities for us to improve.
    To avoid any confusion, let me be clear that the Department 
agrees with GAO's recommendations and we are dedicated to 
implementing widespread reform to help foster energy 
independence among tribes interested in developing their 
resources.
    As a former Director of BIA and current Acting Assistant 
Secretary, I know these issues well and acknowledge that we 
have a significant amount of work to do. My written testimony 
addresses GAO's recommendations and highlights our current 
progress toward implementation.
    GAO made 14 recommendations that will help Indian Affairs 
to promote energy development in Indian Country, including 
better utilization of GIS mapping tools and improved data 
collection and tracking systems.
    We are currently working to address the recommendations. As 
an example, BIA is working to utilize an off-the-shelf mapping 
tool with our Trust Asset and Accounting Management System, 
TAAMS, in order to integrate data viewing and our map creation 
capabilities into the TAAMS at the desktop level.
    The GIS Map Viewer will be based on verified legal 
descriptions and ownership data available in TAAMS with base 
reference data for mapping. Recently, the GIS Map Viewer was 
successfully tested with TAAMS and is now being reviewed for 
compliance with DOI and Indian Affairs information technology 
and electronic security policies and procedures.
    We are also working to address recommendations related to 
tracking systems and data collection by pulling together a 
group of subject matter experts in oil and gas processing to 
identify key identifiers and data fields need to track and 
monitor review and response times for oil and gas leases.
    We will utilize the information gathered during this 
process to make necessary modifications to TAAMS in order to 
improve efficiencies and timeliness in processing workloads.
    Indian Affairs is also in the process of standing up the 
Indian Energy Service Center which is the result of a concept 
paper produced by a multiagency team formed by the Indian 
Energy Minerals Steering Committee. The multiagency team held a 
tribal listening session, met individually with oil and gas 
tribes and the Coalition of Large Land-Based Tribes and also 
received written comments in an effort to gather input from 
relevant stakeholders.
    One of the recommendations was to include other regulatory 
agencies in the service center such as Fish and Wildlife 
Service, the Environmental Protection Agency and the Army Corps 
of Engineers so that the service center can act as a single 
point of contact or a lead agency to coordinate and navigate 
the regulatory process.
    Recognizing the importance of these stakeholders, the 
service center is developing streamlined and standardized 
programmatic coordination with these agencies to the greatest 
extent possible.
    This includes memoranda of understanding with the 
appropriate department bureaus and other Federal agencies 
involved in the development of Indian energy and mineral 
resources. In addition, the BIA, through the Indian Energy 
Minerals Steering Committee, has also established Federal 
partner groups, where needed, which include BIA, the Bureau of 
Land Management, the Office of Natural Resource Revenue, the 
Corps of Engineers, Fish and Wildlife and EPA.
    These groups provide field knowledge on energy and mineral 
issues and serve to facilitate and focus and assume the point 
of contact desired by the respective parties regarding the 
processing of energy development for each region.
    The Department is also working to implement GAO's 
recommendation that DOI provide additional energy development-
specific guidance on provisions of the Tribal Energy Resource 
Agreement or TERA regulations the tribes have identified to the 
Department as being unclear.
    The Department believes that clarity can be best achieved 
by amending the Indian Minerals Development Act of 1982 to 
insert tribal self-determination language similar to that found 
in the Helping Expedite and Advance Responsible Tribal 
Homeownership, the HEARTH Act of 2012.
    The HEARTH Act permits tribes to lease surface trust lands 
for renewable energy purposes absent approval by the Department 
by implementing their own leasing regulations. In prior 
testimony to this Committee, the Department recommended 
Congress consider a HEARTH-like fix in the conventional energy 
arena by amending the law to match the HEARTH Act provisions. 
We would be willing to work with the members of this Committee 
on such an amendment.
    Thank you for the opportunity to present testimony today. 
The Department is committed to upholding the trust 
responsibility to tribes and implementing GAO's 
recommendations. I look forward to answering any questions you 
may have.
    Thank you.
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Acting Assistant Secretary, 
            Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
my name is Michael Black and I am the Acting Assistant Secretary for 
Indian Affairs at the Department of the Interior. Thank you for the 
opportunity to present testimony on behalf of the Department of the 
Interior (Department or DOI) regarding Indian Affairs' role in the 
development of Indian energy and its recent high risk designation in 
the Government Accountability Office (GAO) High Risk Report (GAO-17-317 
High Risk Series).
    The President and the Secretary have made a clear commitment to 
advancing America's energy independence through responsible resource 
development. Tribes play a critical role in this conversation, as 
energy development ranging from clean coal to oil and gas to wind 
creates good-paying jobs and bolsters tribal and local economies. In 
many instances, the development of energy resources offers Tribes 
opportunities that otherwise would not exist, particularly in rural 
areas.
    Strong tribal economies strengthen the exercise of tribal 
sovereignty, and the Department continues to promote tribal energy 
development. However, as previous GAO reports have explained, there are 
many opportunities for us to improve our support for tribal energy 
development. The Department agrees with GAO's recommendations and we 
are dedicated to implementing widespread reform to help foster energy 
independence among Tribes who are interested in developing their 
resources.
    As the High Risk report notes, GAO has made fourteen 
recommendations to the Bureau of Indian Affairs (BIA), via three 
reports, all of which currently remain open. As the former Director of 
BIA and current Acting Assistant Secretary, I know these issues well 
and acknowledge that we have a significant amount of work to do. My 
testimony today will address GAO's recommendations and highlight our 
current progress towards implementation.
GAO 15-502
Recommendation 1: To ensure it can verify ownership in a timely manner 
        and identify resources available for development, BIA should 
        take steps to complete its GIS mapping module in TAAMS.
    Indian Affairs agrees that promoting energy development in Indian 
Country requires timely verification of ownership and identification of 
resources available for development. The Department understands that 
GIS mapping of Indian lands is exceedingly important and we are working 
toward utilizing a GIS mapping tool for Indian lands and developing a 
GIS policy. However, the Trust Asset and Accounting Management System 
(TAAMS) was not designed as a geospatial mapping system, but simply to 
reflect legal descriptions as they appear on documents recorded as 
required by federal law.
    Thus, the BIA is not building out the GIS mapping module in TAAMS. 
Instead, the BIA will utilize commercially available, off-the-shelf 
mapping technology to integrate data viewing and map creation 
capabilities into TAAMS at the desktop. The GIS Map Viewer will be 
based upon verified legal land descriptions and ownership data 
available in TAAMS with base reference data for mapping. Recently, the 
GIS Map Viewer was successfully tested with TAAMS and is now being 
reviewed for compliance with DOI and Indian Affairs Information 
Technology (IAIT) electronic security policies and procedures for 
TAAMS. IAIT Change Advisory Board (CAB) and Architectural Review 
Committee (ARC) are expected to grant a preliminary Authority to 
Operate (ATO) within 180 days of review of the GIS Map Viewer security 
application for TAAMS. The GIS Map Viewer is scheduled for deployment 
by September 1, 2017.
Recommendation 2: To ensure it can verify ownership in a timely manner 
        and identify resources available for development, BIA should 
        work with BLM to identify cadastral survey needs.
    A survey is an important step in developing a full inventory of 
trust resources, yet in more than a century since the establishment of 
Indian reservations, the federal government has not yet fully surveyed 
all Indian reservation lands. As in years past, the BIA and the BLM, in 
a coordinated and focused effort, have prepared a Reimbursable Service 
Agreement between the two agencies to identify and deliver the much 
needed survey-related products and services. Cadastral survey 
inventories are being evaluated and FY17 survey requests have been 
approved for funding and completion by BLM.
Recommendation 3: To improve the efficiency and transparency of its 
        review process, BIA should develop a documented process to 
        track its review and response times.
    The GAO recommended the BIA develop a process to track BIA review 
and response times. A group of BIA subject matter experts in oil and 
gas processing have been working to modify TAAMS, incorporating the key 
identifiers and data fields needed to track and monitor review and 
response times for oil and gas leases and agreements. BIA is also in 
the process of evaluating and reviewing the current realty tracking 
system and TAAMS in order to improve efficiencies and timeliness in 
processing workloads. Due to the fact that modifications to data 
systems must be reviewed by multiple entities within the Department, a 
request for an extension of time will be submitted to the GAO within 
this quarter.
Recommendation 4: To improve the efficiency and transparency of its 
        review process, BIA should enhance data collection efforts to 
        ensure it has data needed to track its review and response 
        times.
    BIA is in the process of evaluating the data collection efforts 
used by various systems. Efforts are underway with subject matter 
experts to analyze and develop recommendations for improving data 
collection, tracking and business processes.
Recommendation 5: Provide additional energy development-specific 
        guidance on provisions of Tribal Energy Resource Agreement 
        (TERA) regulations that tribes have identified to Interior as 
        unclear.
    The Department is working to implement GAO's recommendation that 
DOI provide additional energy development-specific guidance on 
provisions of TERA regulations that tribes have identified to the 
Department as unclear. The Office of Indian Energy and Economic 
Development (IEED) continues to perform training and technical 
assistance on the TERA regulations, and will issue guidance on those 
provisions of TERA that have been identified as unclear.
    The Department believes that clarity can be best achieved by 
amending the Indian Minerals Development Act of 1982 to insert tribal 
self-determination language similar to that found in the Helping 
Expedite and Advance Responsible Tribal Homeownership (HEARTH) Act of 
2012. The HEARTH Act permits tribes to lease surface trust lands for 
renewable energy purposes absent approval by the Department by 
implementing their own leasing regulations. In prior testimony to this 
Committee, the Department recommended Congress consider a HEARTH-like 
fix in the conventional energy arena by amending the law to match the 
HEARTH Act provisions. We would be willing to work with the members of 
this committee on such an amendment.
GAO 16-553
Recommendation 6: Establish required timeframes for the review and 
        approval of Indian Communitization Agreements (CAs) to ensure a 
        more timely CA process.
    The Department is working to ensure CA processes are timely. A 
National Policy Memorandum has been developed that establishes 
timeframes for review and approval of Indian CAs. Such timeframes will 
also be incorporated into the BIA Fluid Mineral Estate Procedural 
Handbook and the Onshore Energy and Mineral Lease Management 
Interagency Standard Operating Procedures. The Memorandum is currently 
undergoing review and approval within the Department. On April 27, 
2017, the Department received notice than an extension was granted by 
GAO to extend the target date to the end of FY18.
Recommendation 7: Develop a systematic mechanism for tracking Indian 
        CAs through the review and approval process to determine, among 
        other things, whether the revised CA process meets newly 
        established timeframes.
    The BIA is developing a systematic mechanism to track Indian CAs 
through the review and approval process. As part of this effort, a 
group of BIA subject matter experts who meet regularly are working to 
implement identified enhancements to TAAMS. Until TAAMS can be modified 
to incorporate the key identifiers and data fields, the BIA is 
utilizing a centralized tracking spreadsheet on the Google platform. 
BIA leads the development and deployment of this tracking spreadsheet 
in consultation and coordination with BLM. We have received an 
extension from GAO to complete this recommendation by the end of FY18.
Recommendation 8: Assess whether the revised CA process is achieving 
        its objective to improve the timeliness of the review and 
        approval of Indian CAs, and if not, make changes as 
        appropriate.
    BIA and BLM will continue to use the tracking spreadsheet mentioned 
above, and, upon completion, the enhanced TAAMS, to monitor and assess 
the results of the efforts to streamline the Indian CA review and 
approval process. The bureaus will coordinate to establish a process 
for review of the collected data, which will assist in identifying and 
implementing any necessary process modifications.
GAO 17-43
Recommendation 9: Include the other regulatory agencies in the Service 
        Center, such as Fish and Wildlife Services, the Environmental 
        Protection Agency, and the Army Corps of Engineers, so that the 
        Service Center can act as a single point of contact or a lead 
        agency to coordinate and navigate the regulatory process.
    The Indian Energy Service Center (IESC) is working to implement 
Memoranda of Understanding (MOU) with appropriate Department bureaus 
and other Federal agencies involved in the development of Indian energy 
and mineral resources and to define roles and responsibilities 
regarding the development of those resources on trust lands. MOUs are 
being developed with the Fish and Wildlife Service (FWS), Environmental 
Protection Agency (EPA), Army Corps of Engineers (Corps), as well as 
IEED and Department of Energy (DOE).
    The BIA, through the Indian Energy Minerals Steering Committee 
(IEMSC), has also established Federal Partners Groups, where needed, 
which include: BIA, BLM, Office of Natural Resource Revenue (ONRR), 
Corps, FWS, and EPA. These groups provide field knowledge on energy and 
mineral issues and serve to facilitate and focus the single point of 
contact desired by the respective parties regarding the processing of 
energy development for each region.
    Currently, Federal Partner Groups are being established for the 
Navajo Region and the Rocky Mountain Region. Federal Partner Groups for 
the Great Plains Region, the Eastern Oklahoma/Southern Plains Regions, 
and the Western Region are currently meeting on a regular basis.
Recommendation 10: Direct the Bureau of Indian Affairs to establish 
        formal agreements with IEED and DOE that identify, at a 
        minimum, the advisory or support role of each office.
    BIA recognizes that in addition to the identification of potential 
energy resources, there must be organized coordination between agencies 
to fully develop and/or protect Indian energy and mineral resources.
    In an effort to improve communication between the two offices, an 
MOU was recently signed between IEED and DOE outlining a partnership 
going forward. Currently, the IESC is reviewing this MOU with the 
intent of entering into the existing agreement. The IESC expects to 
meet with IEED and DOE in the near future to help finalize the 
agreement.
Recommendation 11: Direct Bureau of Indian Affairs to establish a 
        documented process for seeking and obtaining input from key 
        stakeholders, such as BIA employees, on the Service Center 
        activities.
    Currently, the IESC is developing a process that allows key 
agencies to provide input and requests for service received on behalf 
of tribes from the IESC. The process will also include guidance on the 
prioritization of task orders. The Executive Management Group of the 
IESC, comprised of the directors of the BIA, BLM, ONRR, and Office of 
the Special Trustee for American Indians (OST), are engaged in this 
work. The IESC is currently drafting intake forms, which will be 
distributed to obtain input regularly from stakeholders.
Recommendation 12: Direct the Bureau of Indian Affairs to document the 
        rationale for key decisions related to the establishment of the 
        Service Center, such as alternatives and tribal requests that 
        were considered.
    The development of the IESC was the result of a concept paper 
produced by a multi-agency team formed by the IEMSC. The multi-agency 
team held a tribal listening session, received written comments, and 
conducted conference calls in an effort to gather input from relevant 
stakeholders. The final version of the concept paper also included an 
organization chart which set forth the IESC chain-of-command. The IEMSC 
accepted and approved the concept paper as presented by the multi-
agency team. At this point, the BIA believes this recommendation is 
complete.
Recommendation 13: Direct the Bureau of Indian Affairs to incorporate 
        effective workforce planning standards by assessing critical 
        skills and competencies needed to fulfill BIA's 
        responsibilities related to energy development and by 
        identifying potential gaps.
    The BIA is in the process of identifying and implementing a 
workforce plan regarding positions associated with the development of 
Indian energy and minerals. First, the IESC will collect data directly 
from BIA, BLM, ONRR, and OST employees in an effort to identify 
workload and necessary technical competencies. Then, the IESC will work 
with partner bureaus to assess skills and competencies needed for 
energy and mineral workforce standards. This recommendation is expected 
to be completed by the end of 2017.
Recommendation 14: Direct the Bureau of Indian Affairs to establish a 
        documented process for assessing BIA's workforce composition at 
        agency offices taking into account BIA's mission, goals, and 
        tribal priorities.
    The BIA plans to assess the BIA Indian energy and mineral workforce 
composition using the same process as described in Recommendation 13. 
This includes collecting data directly from BIA, BLM, ONRR, and OST 
employees
Conclusion
    Thank you for the opportunity to present testimony today. The 
Department is committed to upholding the trust responsibility to tribes 
and implementing GAO's recommendations. I would be glad to answer any 
questions the Committee may have.

    The Chairman. Thank you, Secretary Black.
    Rear Admiral Buchanan.

  STATEMENT OF REAR ADMIRAL CHRIS BUCHANAN, ACTING DIRECTOR, 
  INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Buchanan. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall and members of the Committee.
    I am Chris Buchanan, an enrolled member of the Seminole 
Nation of Oklahoma, and the Acting Director of the Indian 
Health Service. I am pleased to have the opportunity to testify 
before the Committee on the GAO's February 2017 High Risk 
Report.
    I would like to thank you, Chairman Hoeven, Vice-Chairman 
Udall, and members of the Committee for elevating the 
importance of delivering quality care throughout IHS. The 
mission of the IHS, in partnership with American Indian and 
Alaska Native people, is to raise the physical, mental, and 
spiritual health of American Indian and Alaska Natives to the 
highest level. Providing quality health care is our highest 
priority.
    We share the urgency of overcoming the longstanding, 
systemic problems highlight by the GAO. We are addressing these 
challenges.
    Our goal is to make improvements in all program areas 
identified in the GAO High Risk Report. In addition, we are 
intensifying our efforts to close out open Office of Inspector 
General recommendations. In April 2017, IHS successfully closed 
three longstanding OIG open recommendations.
    IHS has strengthened its Enterprise Risk Management 
Program. The GAO High Risk Report recommendations were directly 
incorporated into this program work for 2017. Additionally, all 
our senior executives in IHS are directly involved in the 
national risk assessment discussions.
    Improving patient access to care through our outreach, 
education and enrollment activities remains a top priority. 
From fiscal year 2012 to fiscal year 2016, we saw a 21 percent 
increase in total Medicaid reimbursements and a 28 percent 
increase in total collections from private insurers.
    IHS is exploring ways to realign performance accountability 
to strengthen both field operations and headquarters oversight 
responsibilities by setting clear senior executive expectations 
and establishing clear lines of authority and accountability.
    In partnership with HHS, IHS developed a strong quality 
framework that is being implemented to assure that all 
hospitals and clinics have quality-focused compliance programs. 
We established the position of the Deputy Director of Quality 
Health Care as part of the agency's senior leadership team to 
provide a national focus for advising the IHS Director, 
providing leadership and guidance to the field and all aspects 
of assuring quality health care.
    This includes oversight of critical quality improvement 
strategies related to accreditation, certification, patient 
safety and quality care.
    We have made great progress in the past few months in 
regard to quality improvement initiatives. On April 28, IHS 
finalized a contract to purchase software for a national 
provider credentialing system. We plan to roll out the system 
in four pilot IHS areas in July of 2017 and to implement across 
the IHS areas by the end of 2017.
    A request for proposals for a single accrediting 
organization for IHS hospitals will be released by July 2017. 
To help hospitals maintain accreditation, IHS established a 
formal partnership with our sister agency, CMS through a 
contract to support best health care practices and other 
organizational improvements for IHS federally-operated 
hospitals that participate in the Medicare program.
    In addition, IHS is developing performance accountability 
metrics to support headquarters' oversight and monitoring 
functions. Earlier this month, we began pilot testing a system 
to collect standardized information on patient health care 
experience. Effective medical equipment is vital to patient 
safety and quality care.
    In July 2016, IHS established a new policy to ensure 
critical medical equipment used at IHS facilities is properly 
maintained and reliable. We mandated the use of computerized 
systems in all Federal health facilities to inventory medical 
equipment and provide information, longevity and reliability.
    We are implementing strategies to increase recruitment and 
retention to address longstanding workforce challenges. To 
share a few examples, IHS implemented a senior executive search 
committee process for recruiting highly qualified executives.
    Also, under the IHS-HRSA partnership, we made offers of 
National Health Service Corps scholarships and loan repayment 
incentives to recruit and retain primary care providers. As of 
April 2017, 472 National Health Service Corps scholarships and 
loan repayment scholars have entered our workforce in IHS and 
tribal facilities. These examples demonstrate that IHS is 
taking its challenges seriously and is continuing to take 
assertive and proactive steps to address them.
    Thank you for your commitment to improving quality, safety 
and access to care for American Indians and Alaska Natives.
    I would be happy to answer any questions the Committee has.
    [The prepared statement of Admiral Buchanan follows:]

  Prepared Statement of Rear Admiral Chris Buchanan, Acting Director, 
  Indian Health Service, U.S. Department of Health and Human Services
    Chairman and Members of the Committee:
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Committee. I am Chris Buchanan, an enrolled member of the 
Seminole Nation of Oklahoma and Acting Director of the Indian Health 
Service (IHS). I am pleased to have the opportunity to testify before 
the Senate Committee on Indian Affairs on the Government Accountability 
Office (GAO) 2017 High Risk Report. I would like to thank you, Chairman 
Hoeven, Vice-Chairman Udall, and members of the Committee for elevating 
the importance of delivering quality care through the IHS.
    The IHS plays a unique role in the Department of Health and Human 
Services (HHS) because it was established to carry out the 
responsibilities, authorities, and functions of the United States to 
provide health care services to American Indians and Alaska Natives. 
The mission of the IHS, in partnership with American Indian and Alaska 
Native people, is to raise the physical, mental, social, and spiritual 
health of American Indian and Alaska Natives to the highest level. The 
IHS provides comprehensive health care delivery to approximately 2.2 
million American Indian and Alaska Natives through 26 hospitals, 59 
health centers, 32 health stations, and nine school health centers. 
Tribes also provide healthcare access through an additional 19 
hospitals, 284 health centers, 163 Alaska Village Clinics, 79 health 
stations, and eight school health centers.
    Providing quality healthcare is our highest priority. We share the 
urgency of addressing longstanding systemic problems highlighted in the 
February 2017 GAO High Risk Report. I would like to describe for you 
how we are addressing these challenges and highlight examples of recent 
progress.
Enterprise Risk Management Program
    IHS has strengthened its Enterprise Risk Management (ERM) Program, 
which closely aligns our Risk Profile to our activities under the 
Federal Manager's Financial Integrity Act (FMFIA). A key element of the 
FMFIA, in addition to maintaining financial integrity, is providing 
annual assurance to the Secretary and the Congress that programs are 
effective and meet their objectives. The GAO High Risk Report 
recommendations have been directly incorporated into our ERM work for 
2017. All senior executives in IHS have been directly involved in 
national risk assessment discussions with a focus on effective risk 
mitigation planned for all executives and managers in 2017.
    IHS has dedicated sufficient resources to ensure that we have the 
needed expertise in IHS Headquarters to lead and oversee a successful 
risk management approach to improvement in all program areas on the GAO 
High Risk Report. In concert with closer attention to unimplemented 
recommendations from GAO, we are also intensifying our efforts to close 
out open Office of Inspector General (OIG) recommendations. In April 
2017, IHS successfully closed three long-standing OIG open 
recommendations, related to improvements needed in the IHS Behavioral 
Health Program. IHS has made progress in establishing and increasing 
partnerships within the agency, improved collaborations with other 
federal agencies and tribal organizations, and extensive training for 
program staff to ensure sustainability.
    IHS has increased senior management attention and priority on prior 
GAO recommendations related to management oversight of Indian health 
care and is implementing many positive changes. We are using the GAO 
findings and recommendations to inform our strategic and tactical 
planning efforts.
Third Party Revenue
    IHS has diligently worked to improve access to care for our 
beneficiaries through outreach, education and enrollment activities 
that has resulted in higher total third party collections. We saw a 21 
percent increase in total Medicaid reimbursements and a 28 percent 
increase in total collections from private insurers from FY 2012 to FY 
2016. Another result of enrollment activities is to increase patient 
access to care by having third party payers cover care provided outside 
of the Indian health system for eligible beneficiaries. Also, in all 
IHS areas, we have programs that are able to purchase health care 
beyond the medical priority I.
Realignment and Reorganization
    IHS is exploring ways to realign performance accountability to 
strengthen both field operations and headquarters oversight 
responsibilities by setting clear senior executive expectations, and 
establishing clearer lines of accountability. We also want to 
strengthen executive leadership accountability for accomplishing the 
objectives of the priorities of IHS that will result in improvement of 
the quality of health care provided.
Quality Framework
    IHS is strongly committed to assuring that all its hospitals and 
clinics have quality-focused compliance programs. In partnership with 
the HHS Executive Council on Quality Health Care, IHS developed a 
strong Quality Framework (QF) that is now being implemented. We 
developed the QF by assessing current IHS quality policies, practices, 
and programs, incorporating standards from national experts, consulting 
with tribal leaders, and including best practices and expertise from 
across the IHS system of care, as well as leveraging quality 
specialists across HHS. The core elements are:

  <bullet>  Strengthening Organizational Capacity to Improve Quality of 
        Care and Systems,

  <bullet>  Meeting and Maintaining Accreditation for IHS Direct 
        Service Facilities,

  <bullet>  Aligning Service Delivery Processes to Improve Patient 
        Experience,

  <bullet>  Ensuring Patient Safety, and

  <bullet>  Improving Transparency and Communication Regarding Patient 
        Safety and Quality to IHS Stakeholders.

    We established the position of Deputy Director for Quality Health 
Care as part of the agency's senior leadership team to provide a 
national focus for advising the IHS director and providing leadership 
and guidance to the field on all aspects of assuring quality health 
care. Continuing the implementation of the strategic QF at all levels 
of IHS and in partnership with Tribal/Urban Indian organization 
partners is a key priority of this position. This includes oversight of 
critical quality improvement strategies related to accreditation/
certification, patient safety, and quality care.
Quality Improvement Initiatives
    We have made great progress in the past few months. On April 28th, 
IHS finalized a contract to purchase software for a National Provider 
Credentialing System, with a plan to roll out the system in four pilot 
IHS areas in July 2017 and a plan to implement across the other IHS 
areas by the end of 2017. The credentialing policy has been updated, 
and is the final stages of clearance. IHS plans to release a request 
for proposals for a single accrediting organization for IHS hospitals 
by July 2017. To help hospitals maintain accreditation, IHS established 
a formal partnership with our sister agency, the Centers for Medicare & 
Medicaid Services (CMS), through a contract to support best health care 
practices and other organizational improvements for IHS federally-
operated hospitals that participate in the Medicare program.
    IHS hospitals can partner with CMS, which is supporting a Quality 
Innovation Network--Quality Improvement Organization to support, build, 
and redesign, if needed, their hospital operating infrastructure in 
order to provide high quality health care services. Under this 
partnership, IHS hospitals are able to focus on improving leadership 
and staff development, data acquisition and analytics, clinical 
standards of care, and quality of care related to the Medicare program.
    In addition, IHS is developing a performance accountability 
dashboard and related metrics to support Headquarters' oversight and 
monitoring functions. Earlier this month, pilot testing began for a 
system to collect standardized information on patient experience with 
care, using tablet devices. Workgroups are also finalizing standard 
setting for patient wait times and their measurement, and minimum 
standards for hospital Governing Board meetings. Beginning with the 
Great Plains Area, IHS is pilot testing a leadership coaching and 
mentoring program to strengthen organizational capacity to improve 
quality and governance.
    Effective medical equipment is vital to patient safety and quality 
care. In June 2016, IHS established a new policy to ensure critical 
medical equipment used at IHS facilities is properly maintained and 
reliable. Additionally, we mandated the use of a computerized system in 
all Federal health facilities to inventory medical equipment and 
provide other information about longevity and reliability. As 
implementation continues, we expect to see improved management of our 
medical equipment inventory to ensure outdated and non-functioning 
equipment is replaced in a timely manner.
Workforce Development
    One of the most difficult challenges for IHS remains recruiting and 
retaining highly skilled administrators and physicians in rural and 
remote areas. To make a career in IHS more attractive to modern health 
care practitioners and health care administrators, IHS is implementing 
various strategies to increase recruitment and retention. To share a 
few examples, IHS has implemented a senior executive search committee 
process for recruiting highly qualified executives. Search committees 
are made up of IHS leadership and tribal partners who are charged with 
candidate outreach, assessment, and vetting. Through this new process, 
the IHS is more widely advertising vacancies through Federal, State, 
and non-profit partners, and is actively seeking additional venues to 
attract a diverse applicant pool of qualified candidates.
    IHS also has partnered closely with the Office of the Surgeon 
General to increase the recruitment of Commissioned Corps officers to 
provide management and clinical services throughout the IHS. The 
Commissioned Corps is offering expedited commissioning to applicants 
who commit to service in an IHS facility with critical staffing needs. 
In addition, the IHS and the Health Resources and Services 
Administration continue to work together to make the National Health 
Service Corps (NHSC) more accessible to fill health professional 
vacancies. This allows IHS facilities to recruit and retain primary 
care providers by using NHSC scholarship and loan repayment incentives. 
As of April 2017, 472 NHSC loan repayment and 21 NHSC scholars have 
entered our workforce in IHS and tribal facilities.
    These examples demonstrate that IHS is taking its challenges 
seriously, and is continuing to take assertive and proactive steps to 
address them. Thank you for your commitment to improving quality, 
safety, and access to health care for American Indians and Alaska 
Natives. I will be happy to answer any questions the Committee may 
have.

    The Chairman. Thank you, Admiral Buchanan.
    I will turn now to Director Dearman.

     STATEMENT OF TONY DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee.
    Thank you for the invitation to appear today to provide a 
statement on behalf of the Bureau of Indian Education and its 
recent designation on the Government Accountability Office High 
Risk Report.
    I am Tony Dearman, an enrolled member of the Cherokee 
Nation, and the BIE Director. Prior to becoming the BIE 
Director in November 2016, I served as Associate Deputy 
Director for Bureau-operated schools, Education Line Officer, 
Superintendent of Riverside Indian School, a principal and 
Science teacher at Sequoyah High School.
    Sequoyah High School has had more than 60 students receive 
the Gates Millennium scholarship over the past 15 years. At 
Riverside Indian School, where my daughter attends, we 
effectively built cross-agency and local partnerships to 
address the varying needs of our students.
    The successes my schools achieve require transparency, 
collaboration and dedication by everyone. In my short time as 
Director, I, alongside my leadership team, have been working to 
bring the same focus to BIE.
    In February, the GAO released its High Risk Report 
designating BIE as a high risk agency. In three separate 
reports dating back to 2013, the GAO provided 13 
recommendations to improve the Indian Affairs management of BIE 
schools.
    As of 2017, we have implemented three recommendations. We 
should have addressed these issues when they were first 
recommended by the GAO and I realize this lapse. I take full 
responsibility for these outstanding items on behalf of the 
agency.
    I am working with our senior leadership team within BIE as 
well as Indian Affairs, the Secretary's office and the GAO to 
ensure we address the outstanding recommendations. Our goal is 
not simply to close out the GAO recommendations but to utilize 
GAO reports as a road map for BIE to establish and maintain 
comprehensive policies and procedures that ensure 
accountability and provide long term organizational stability.
    Regarding GAO 13-774, we have implemented recommendations 
two, three and five which includes developing a communications 
strategy, appointing members to the BIE Department of Education 
Committee and revising a strategic workforce plan.
    We are continuing to assess the previous work while also 
working to implement recommendations one and four which are to 
develop documented decision-making procedures and a strategic 
plan. We plan to implement the remaining recommendations by the 
close of 2018.
    Regarding GAO-15-121, our work addressing these 
recommendations has been insufficient to date. We are moving 
forward to implement the report's four outstanding 
recommendations, including the creation of a comprehensive 
workforce plan, information sharing and financial oversight 
policies, as well as a risk-based monitoring system. To that 
end, we plan to complete the work on Recommendations 1 and 2 no 
later than the close of 2018 and Recommendations 3 and 4 by the 
middle of 2019.
    Regarding GAO-16-313, for Recommendations 1 and 2, we 
worked with the Bureau of Indian Affairs to implement a safe 
schools audit that was completed at all BIE-funded schools in 
2016. We must ensure the focus on completion does not detract 
from the quality of inspections.
    In addition, coordination and training is still needed to 
ensure sufficient work and follow up to which we are committed.
    With regard to Recommendations 3 and 4, we are conducting 
ongoing staff training, as well as working with Indian Affairs 
to provide support for school safety committees. Our agencies 
are working to produce formal policies and procedures to 
address shortcomings identified by a recently-formed 
interagency workgroup.
    Members of the Committee, thank you for the opportunity to 
present testimony today. While the designation as a high risk 
agency is a difficult matter to address, please know that I am 
not naive when I say the GAO's recommendations provide a 
concrete map toward sustained improvement.
    I appreciate the oversight this Committee is providing, as 
well as the expertise from GAO to help BIE address longstanding 
issues to better support Indian students. The GAO has laid out 
the tools for improvement. Now it is incumbent upon me and the 
rest of us at BIE to implement their guidance which will make 
us stronger, effective and accountable.
    There are great employees bureau-wide who wake up excited 
every day to improve a child's life, a child who, like my 
daughter, has all the potential to succeed given the right 
tools.
    Thank you for your time and I would be honored to answer 
any of your questions.
    [The prepared statement of Mr. Dearman follows:]

    Prepared Statement of Tony Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for the invitation to appear today to provide 
a statement on behalf of the Bureau of Indian Education (BIE) and its 
recent high risk designation on the Government Accountability Office 
(GAO) High Risk Report (GAO-17-317 High Risk Series).
    I am Tony Dearman, a member of the Cherokee Nation, and the BIE 
Director. Prior to becoming the BIE Director in November 2016, I served 
as Associate Deputy Director for Bureau-operated schools, overseeing 17 
schools, four off-reservation boarding schools, and one dormitory. 
Before that, I served as superintendent of Riverside Indian School 
located in Anadarko, Oklahoma, and principal of Sequoyah High School in 
Tahlequah, Oklahoma. During my service at the school level, my 
leadership team worked to ensure our students not only received a 
quality education but also had the opportunity to receive holistic 
support.
    Today, Sequoyah High School is a first preference among Native 
students. In fact, more than 60 students who attended have gone on to 
receive Gates Millennium scholarships over the past 15 years. The 
competitive scholarship is based on a minimum 3.5 grade point average, 
community service hours, leadership experience, and written essays. At 
Riverside Indian School, we effectively worked with 75 different Indian 
tribes representing approximately 500 students from 23 states. To 
address the varying needs of our students, such as behavioral and 
mental health support services, we built partnerships with the Indian 
Health Service, local emergency medical services, and law enforcement 
to make sure students and staff were in a safe school environment.
    My passion has always been supporting our students at the local 
level, and I am honored to serve them in this new capacity, utilizing 
my knowledge of how our schools function, the issues students face, and 
the support they need from BIE to create success system-wide. The 
successes my schools achieved required transparency, collaboration, and 
dedication by everyone. In my short time as Director, I have been 
working to bring that same focus to BIE and have worked with the senior 
leadership team to expand the culture that served us so well at the 
school level.
    However, as highlighted in the GAO reports, much work remains. We 
have prioritized the GAO recommendations and are addressing these 
issues head on. The BIE team views the GAO's reports as a constructive 
tool to improve our agency and help the students for whom we are 
committed to serve. As such, I will provide you an update detailing the 
following areas:

        1. GAO High Risk Status for BIE

        2. GAO Recommendations

        3. GAO Recommendations Status & BIE Next Steps

Bureau of Indian Education
    BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories. Currently, the BIE directly operates 
53 schools and dormitories and tribes or tribal school boards operate 
the remaining 130 schools and dormitories through grants or contracts. 
In total, BIE-funded schools serve approximately 48,000 K-12 American 
Indian and Alaska Native students and residential boarders. 
Approximately 3,400 teachers, professional staff, principals, and 
school administrators work to support BIE-operated schools.
    BIE faces unique and urgent challenges in providing a high-quality 
education. As highlighted by GAO, a lack of consistent leadership--
evidenced by the BIE's more than 35 directors since 1979--and the 
absence of regular and consistent strategic planning have limited the 
BIE's ability to improve its services.
GAO High Risk Status for BIE
    In February, the GAO released its High Risk Report (GAO-17-317 High 
Risk Series) designating BIE as a high risk agency. The GAO highlighted 
the following persistent weaknesses noted in prior reports that inhibit 
the agency from fulfilling its mission to effectively serve Indian 
students:

  <bullet>  Indian Affairs' oversight of school safety and 
        construction, as well as how BIE monitors the way schools use 
        Interior funds;

  <bullet>  The impact of limited workforce planning in several key 
        areas related to BIE schools affects service delivery;

  <bullet>  The effects of aging BIE school facilities and equipment 
        and how such facilities contribute to degraded and unsafe 
        conditions for students and staff; and

  <bullet>  How the lack of internal controls and other weaknesses 
        hinder Indian Affairs' ability to collect complete and accurate 
        information on the physical conditions of BIE schools.

    In three separate reports dating back to 2013, the GAO provided 13 
recommendations to improve Indian Affairs' management of BIE schools. 
As of 2017, eleven of GAO's recommendations remain open. As the BIE 
Director, I am committed to addressing these outstanding items. To that 
end, I am working with our senior leadership team within BIE as well as 
with Indian Affairs, the Secretary's office, and our colleagues at the 
GAO to ensure that BIE systematically and comprehensively addresses 
each outstanding recommendation as expeditiously and effectively as 
possible.
    My goal is not simply to address and close out GAO recommendations, 
but to utilize the outlined recommendations as a roadmap for BIE to 
establish and maintain comprehensive internal policies and procedures 
that support service delivery, ensure accountability, and provide 
organizational stability no matter who is leading the agency.
GAO Recommendations: Status & BIE Next Steps
    In the past few years, BIE planned, consulted on, designed, and 
implemented a complex, multifaceted, bureau-wide reorganization. In 
February 2016, the Department of the Interior directed BIE to move 
forward with Phase I of its reorganization, with the agency committing 
considerable time, energy, and resources to carry out the directive. 
Simultaneously, considerable turnover within BIE senior leadership 
reduced capacity and focused BIE's attention on day-to-day service 
delivery rather than addressing critical, long-term organizational 
improvement strategies highlighted in GAO reports. BIE has now 
prioritized resources and critical personnel to refocus efforts to 
address the longstanding issues outlined in GAO reports that will, 
ultimately, improve our service delivery to Indian students.
    In November 2016, the BIE filled several key positions that have 
been tasked with serving on an internal working group focused on 
evaluating all outstanding GAO recommendations as well as BIE's past 
GAO closure submissions. The team completed its analysis in early 2017 
and reported its findings and recommendations to BIE leadership in mid-
March. Based on the information received, BIE leadership is not 
satisfied with the quality and timeliness of the work to date, and 
recognizes the shortcomings and the need for each GAO recommendation to 
be reexamined and properly addressed.
    As described below, the BIE is currently working to complete the 
actions recommended in each of these three GAO reports. BIE leadership 
has identified and tasked specific staff to address each outstanding 
recommendation in a holistic and inclusive manner that creates buy-in 
and collaboration throughout the BIE and with staff across Indian 
Affairs. Further, BIE senior leadership looks forward to coordinating 
with GAO as the agency works to implement the recommendations outlined 
in this report.
GAO Recommendations
    GAO-13-774-INDIAN AFFAIRS: Better Management and Accountability 
Needed to Improve Indian Education (September, 2013).

    GAO made five recommendations:

        I.) Develop and implement decisionmaking procedures which are 
        documented in management directives, administrative policies, 
        or operating manuals;

        II.) Develop a communication strategy;

        III.) Appoint permanent members to the BIE-Education committee 
        and meet on a quarterly basis;

        IV.) Draft and implement a strategic plan with stakeholder 
        input; and

        V.) Revise the BIE strategic workforce plan.

    BIE has completed implementation of recommendations two, three, and 
five, which includes development of a communications strategy, 
increased collaboration with the Department of Education through 
several mechanisms, including a BIE-ED Committee that meets every other 
week (rather than just quarterly) and that has proven to be even more 
responsive and effective than the quarterly one addressed in the 
original GAO recommendation, and revision of a strategic workforce 
plan, respectively. BIE will assess the effectiveness of its 
implementation of GAO's recommendations in an effort to continually 
improve BIE's operations. Currently, BIE is working to implement 
recommendations one and four, which are to develop documented 
decisionmaking procedures and a strategic plan, respectively, and 
partnering with GAO to clear them. BIE plans to implement fully the 
remaining recommendations contained in GAO-13-774 by 2018.
    Recommendation I--BIE, working cooperatively with leadership within 
Indian Affairs and pertinent stakeholders, has tasked an internal 
working group with evaluating the GAO recommendations. That working 
group will draft a formal, written decisionmaking policy and 
procedures, to be completed by the end of 2018.
    Recommendation IV--BIE, working cooperatively with leadership 
within Indian Affairs and pertinent stakeholders, has reviewed the 
strategic plan submitted to GAO in September 2016 and has determined 
the quality of work as unsatisfactory, both for the purposes of closing 
recommendation four and for working as a functional tool intended to 
guide the organization in achieving its mission. At the close of this 
review, BIE immediately began the process of planning and drafting a 
revised strategic plan. On March 8, 2017, BIE conducted a senior leader 
strategic planning exercise and followed that with an April 11, 2017 
all-leaders strategic planning conference convening local, regional, 
and central office leadership to determine paths forward. BIE revised 
its mission and vision statement as well as its strategic goals 
identified at the end April 2017 and will hold follow-up leadership 
meetings in late May and June.
    BIE has also partnered with external organizations such as the 
Council of Chief State School Officers--a nonpartisan, nationwide, 
nonprofit organizational leader that supports State Educational 
Agencies in serving their schools and students--to provide expertise 
and best practices in developing a sound strategic plan as well as 
creating a functional action plan for implementing an accurate system 
of progress measurement once the strategic plan is implemented. BIE 
expects to have the strategic plan completed, published publicly, and 
fully implemented by no later than the end of 2018.
    GAO-15-121-INDIAN AFFAIRS: Bureau of Indian Education Needs to 
Improve Oversight of School Spending (November, 2014).

    GAO made four recommendations:

        I.) Develop a comprehensive workforce plan;

        II.) Implement an information sharing procedure;

        III.) Draft a written procedure for making major program 
        expenditures; and

        IV.) Create a risk-based approach in managing BIE school 
        expenditures.

    In addition to GAO-13-774, BIE is continuing its work to implement 
GAO's four recommendations contained in GAO-15-121. To that end, the 
BIE plans to complete its work with respect to recommendations one and 
two no later than the close of 2018 and recommendations three and four 
by the middle of 2019.
    Recommendation I--BIE, working cooperatively with leadership within 
Indian Affairs and pertinent stakeholders, has tasked an internal 
working group with evaluating the GAO recommendations. That working 
group will draft a comprehensive workforce plan that is aligned with 
the BIE strategic plan, to be completed in 2018.
    Recommendation II--BIE, working cooperatively with leadership 
within Indian Affairs and pertinent stakeholders, has tasked an 
internal working group with evaluating GAO recommendations. That 
working group will also draft a comprehensive, interdepartmental 
coordination and information-sharing policy to ensure accountability 
and effectiveness in operations and service delivery.
    Recommendation III--BIE, working cooperatively with leadership 
within Indian Affairs and pertinent stakeholders, has started drafting 
and implementing a comprehensive financial oversight policy that 
establishes effective risk management procedures that will prevent, 
detect, and respond to fraud, including improper payments, based on 
GAO-established practices and OMB guidance. To accomplish this goal, 
the BIE will prioritize hiring staff with applicable experience and 
skills and we are already partnering with outside groups that can 
provide the much-needed technical assistance and expertise.
    Recommendation IV--BIE, working cooperatively with leadership 
within Indian Affairs and pertinent stakeholders, is drafting and 
implementing a risk-based monitoring methodology that is in compliance 
with the Fraud Reduction and Data Analytics Act of 2015 (Public Law 
114-186). BIE is currently seeking external working partnerships to 
provide much-needed technical assistance and expertise.
    GAO-16-313-INDIAN AFFAIRS: Key Actions Needed to Ensure Safety and 
Health at Indian School Facilities (March, 2016)

    GAO made recommendations:

        I.) Ensure that all BIE schools are inspected as well as 
        implement a plan to mitigate challenges;

        II.) Prioritize inspections at schools where facility 
        conditions may pose a greater risk to students;

        III.) Develop a plan to build schools' capacity to promptly 
        address safety and health problems with facilities and improve 
        the expertise of facility staff to maintain and repair school 
        buildings; and

        IV.) Consistently monitor whether schools have established 
        required safety committees.

    Finally, BIE is working to implement GAO's four recommendations 
contained in GAO-16-313.
    Recommendations I and II--BIE has worked with the Bureau of Indian 
Affairs (BIA) to address the first recommendation by implementing a 
Safe School Audit. In 2016, the audit was successfully completed at all 
BIE-funded schools and the agencies started the process of implementing 
corrective measures for identified deficiencies. However, we must 
ensure that the focus on completion does not detract from the quality 
of inspections, so additional coordination and training is still needed 
to ensure quality work, and most importantly, the necessary follow-up 
and technical assistance is provided.
    Recommendations III and IV--BIE is conducting ongoing staff and 
administrator training and is working with BIA to provide ongoing 
support for school safety committees through school inspections. We 
recognize that reporting for such activities is inadequate, so BIE is 
working with BIA to provide oversight of such inspections. The agencies 
are working to produce formal policies and procedures to address 
shortcomings through a recently formed inter-agency workgroup that is 
meeting throughout the summer to ensure coordination of activities as 
well as formalize long-term policies and procedures. The agencies, in 
coordination with other offices within Indian Affairs, are scheduled to 
meet in late May to coordinate activities to address these 
recommendations.
Conclusion
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to present testimony today. While the 
designation as a high risk agency is a difficult matter to address, 
please know that the BIE is committed to addressing GAO's 
recommendations in order to achieve sustained improvement.
    There are great employees Bureau-wide--from Central Office staff, 
to Education Resource Centers, to school teachers and cooks--who wake 
up excited every day to improve a child's life. But, there are also 
impediments to improvement and obstacles that hinder coordination and 
positive reform, as highlighted by GAO. Now, it is incumbent upon me, 
and all of us at BIE, to implement these recommendations.
    The BIE looks forward to working with the Members of this 
Committee, the GAO, and our partners across Interior as we address 
these recommendations. Thank you for your time, and I would be honored 
to answer any questions you may have.

    The Chairman. Thank you, Director Dearman.
    I would like to thank all of the witnesses again.
    At this time, I would like to turn to Senator Franken and 
ask if it would be okay if we do some questions?
    Senator Franken. I am sorry, Mr. Chairman. I was not 
listening.
    The Chairman. I was wondering since you objected to 
questions earlier, I am wondering if it is okay if we do some 
questions now?
    Senator Franken. No objection, Mr. Chairman.
    The Chairman. Thank you.
    We will start with Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman and Ranking 
Member, for this important discussion.
    My first question is for Melissa. Just so I have an 
understanding of this since I am new to the Committee. I am 
from Nevada and represent the great State of Nevada.
    This High Risk Report is put out because of the 41 
auditing, I do not know what you call it, violations or 
concerns that you have and the 39 that were not implemented, it 
is because these concerns were noted over two years ago or 
three years ago? How long has this been sitting out there 
before they are put in a High Risk Report like this?
    Ms. Emrey-Arras. That is an excellent question. It is more 
about the concerns we have identified than the number of 
recommendations that have yet to be implemented or how long it 
is taking them to be implemented. The concerns about public 
health and safety, critical services to tribes and their 
members, and the extent of the issues we found in these three 
areas led to our placing these three areas on the High Risk 
List.
    It does not mean that they have to complete each and every 
recommendation to get off the list but there needs to be 
demonstrated progress to show there is not significant concern 
for public safety, for example.
    Senator Cortez Masto. That is helpful because I just need 
to know, for the other members, were you just notified of this? 
How much time have you had to try to address these concerns? I 
am curious about your level of resources to address these 
concerns considering that there is a hiring freeze that is on 
and whether that has an impact on how you can or are able to 
address the contentions that are before you?
    Why don't we go down the line? I am curious to hear your 
thoughts on that.
    Mr. Black. A number of the reports, as Melissa mentioned 
earlier, date back a couple of years and we have been 
continually working on a number of those recommendations in 
both areas of BIE and Indian education, as well as Indian 
energy.
    Some of the stuff I identified in my testimony regarding 
Indian energy related to the service center, our refocusing the 
Indian Energy Mineral Steering Committee and some of those 
items that are efforts on our part.
    We have recognized a lot of those shortcomings. We are 
working hard to identify not only the shortcomings we have but 
methods, processes, procedures and streamlining that we can do 
to fully address GAO's recommendations.
    Senator Cortez Masto. Thank you. Because I have a short 
amount of time, I would like to hear from all of you but also a 
timeframe. Do you have a timeframe on when you intend to 
address these concerns?
    Mr. Black. Within our response to GAO, we identify 
timeframes for each and every one of the recommendations, yes.
    Mr. Buchanan. Thank you, Senator.
    We recognize how important the GAO recommendations are. I 
think we have been on it for about six years. We have had 
various recommendations that we have been providing. We take it 
seriously. We use the GAO recommendations as another 
opportunity to improve our health care service delivery.
    Thank you.
    Mr. Dearman. Thank you, Senator.
    Our GAOs actually go back to 2013. I have been on the job 
for six months. We have prioritized the GAO report and we are 
putting together workgroups to implement the recommendations 
from the GAO.
    Also, in doing this, we have created interagency workgroups 
because in our system, the BIE system, we have to have 
collaboration with Indian Affairs as well because there are so 
many parts of our schools where we do not have control.
    We are looking forward to working with Indian Affairs and 
implementing the recommendations.
    Senator Cortez Masto. I understand the Federal Government 
moves slowly but this is way too slow. It is unacceptable. 
These are serious contentions and it is impacting people in 
these communities.
    I would hope that you are seriously willing to work with us 
in Congress to address these concerns in a timely manner. I 
would ask that each one of you be willing to do so.
    I appreciate you coming here and being willing to come 
forward and talk about this but it needs to be addressed in a 
timely manner.
    Thank you for being here.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Mr. Chairman and Vice Chairman, thanks so 
much for calling this meeting.
    I am going to pick up where Senator Cortez Masto left off. 
We are struggling every day in Indian Country in this country 
with poor schools, poor health care, poor law enforcement, and 
lack of housing. We cannot afford not to be absolutely the best 
at what we do. We cannot afford to wait six years to address 
the issues that GAO has set forth.
    We need to do a better job on this dais, I think, holding 
you all accountable and knowing that this matters. This work 
matters that you do. It is a matter, in some cases, of life and 
death. It certainly is a matter of the future of children 
living in Indian Country.
    I am not going to go maybe beyond that but I want you to 
know that we intend to take this very seriously. We want to see 
better results. I think anyone who has sat through these 
hearings in the last Congress knows we are particularly 
concerned about the quality and the response at Indian Health. 
It needs to be better.
    All of this, as we work through these programs, it is hard 
to fight for additional funding when there appears to be a lack 
of accountability for the funding you already get. I spend a 
lot of time reviewing GAO reports in our role on the Homeland 
Security and Government Affairs Committee. I think in many 
cases, we do not take these reports as seriously as we should 
but it is particularly concerning to me in Indian Country.
    Rather than go through a series of questions about when and 
if, just know we are going to call on you to give us reports. 
It is not going to wait until the next hearing. We are going to 
be on this.
    If you need more resources, if that is a problem, then you 
need to say it. You cannot just keep doing what you are doing 
and expect the same result. We have the lowest rates of high 
school graduation in Indian Country, the highest rates of 
infant mortality, and the highest rates of diabetes. We could 
go on and on and on. That is not a formula for success going 
forward.
    You have an obligation not only to the taxpayers and people 
of this country. You have a treaty obligation to meet these 
standards under treaty obligations. Just know I know we are 
turning page, we have a new Administration coming in, but we 
are going to be looking for a much higher level of 
accountability. We are going to be asking our friends at GAO to 
continue to participate to change the outcomes.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heitkamp.
    Ms. Emrey-Arras, you found as far as wait times at IHS 
facilities, patients could wait six weeks for an initial exam 
with a family medicine physician and up to three to four months 
for an initial exam by an internal medicine physician.
    Why is it taking so long? Why isn't it getting fixed?
    Ms. Emrey-Arras. For that question, I will defer to my 
colleague, Ms. Kathy King who is the director for that work.
    Ms. King. Good afternoon, Senator.
    I think one of the key problems is that IHS headquarters 
delegates responsibility for all of these matters to the area 
offices and then they do not have proper oversight, so there is 
not feedback coming from the area offices back to headquarters 
about what is going on.
    The Chairman. Admiral Buchanan, how are you going to fix 
that and when?
    Mr. Buchanan. We acknowledge the challenges and the 
frustration of the Committee. We can do better and will do 
better. We have implemented what we have been referencing as 
the quality framework going forward. I mentioned in my 
testimony the Enterprise Risk Management System providing 
metrics.
    Specifically related to our quality framework, we have 
identified five priority areas, one of those being wait times 
and making sure that our patients and patient safety is top 
priority. That is what we are looking for in the Indian Health 
Service.
    Timelines, we have timelines specifically related to our 
Enterprise Risk Management System. The next step is, we have 
identified all our high risk areas within the agency by 
bringing in all our office directors and area directors and 
having them participate in this risk management system and 
identifying those risks.
    The next step is to develop action plans going forward. I 
look to have those action plans completed by July 2017.
    The Chairman. Meaning, you have the standards and have them 
implemented by when?
    Mr. Buchanan. I am sorry. Let me clarify.
    The Chairman. You have established the standards and then 
you have to implement them. You have established the standards 
and when do you expect to have them established? If you have 
not, then when do you expect to have them implemented?
    Mr. Buchanan. Specifically, for the wait times, we are 
looking at all of our best practices that we have been 
utilizing across the agency. We are doing measurements to see 
what those standards should be.
    Then once we hit those standards, we will do some pilot 
testing to move that out. I cannot give you a specific date on 
when that will roll out.
    The Chairman. You need to. This has gone on too long 
already. We need to know when you are going to have your 
standards, when you are going to have them in place, and how 
are you are going to follow up to make sure they are adhered to 
because then we need to have the GAO go back and make sure it 
is getting done.
    I think this goes to what both Senator Cortez Masto, 
Senator Heitkamp, and I am sure the Vice Chairman will ask you 
about it, as well as other members of this Committee. We need 
to be setting some timelines here to get it done, we need to 
track the progress, and we need to have you back in front of us 
to know it is getting done.
    We cannot continue to have this not get done. That is what 
we are looking at here. That is why you are in the high risk 
category because it is not getting done. We are going to agree 
to get it done, we are going to agree on some timelines, and 
agree to some follow up so that we know this stuff is getting 
done.
    If you do not have those timelines, I want you to come 
back. I would ask that you come back to the Committee with 
those timelines. I would ask that the GAO come back as well and 
we will set it up for follow up. We are going to track this.
    Mr. Buchanan. Yes, sir, we are definitely willing to track 
it. We have implemented some metrics to start the tracking 
process once these items and these workgroups establish the 
timeframes we want to monitor.
    That is not only at the local level, but we are bringing it 
from the headquarters to area, all the way through the service 
units. We will have timelines.
    The Chairman. By when do you suppose you could get back to 
us with an indication of when you will have the timelines and 
when you are going to have them implemented? You tell me how 
soon you can get back to the Committee on that?
    Mr. Buchanan. By the end of fiscal year 2017.
    The Chairman. That is too long. It needs to be before then.
    Mr. Buchanan. July 2017.
    The Chairman. That is the soonest you think you could do 
it?
    Mr. Buchanan. If I can get it done sooner, I will get it 
done sooner.
    The Chairman. All right.
    Mr. Buchanan. You have my commitment on that.
    The Chairman. Mr. Vice Chairman.
    Senator Udall. Thank you, Chairman Hoeven.
    Senator Cortez Masto asked a question and I do not think I 
heard an answer from some of you. That was on the issue of the 
hiring freeze. Along with several of my colleagues on this 
Committee, I signed a letter to President Trump urging him to 
exempt Indian programs from the February hiring freeze. Now, 
these same programs might feel the effects of the reduction in 
force planned by the President.
    I will come back to Melissa, but my question to each of you 
is did the hiring freeze exacerbate your agency staffing issues 
identified by the GAO?
    Mr. Black. Thank you for the question, Senator.
    The hiring freeze has been lifted at this point in time.
    Senator Udall. I do not want to interrupt you but my 
understanding is you are still bound up in the hiring freeze. 
We have gone out of the time period but are you hiring right 
now?
    Mr. Black. Yes, we are, sir.
    Senator Udall. You are hiring all across the board?
    Mr. Black. Yes.
    Senator Udall. Bureau of Indian Affairs, BIE, IHS, all 
across the board?
    Mr. Black. I cannot speak for IHS, but for BIA and BIE, 
yes, sir, we are able to hire. We are going through a process 
to ensure that we are hiring our highest priorities at this 
time and working through that process.
    Senator Udall. When you say highest priorities, it sounds 
like you are slowing it down some because that is some of the 
stuff I have been hearing within the agencies, that the hiring 
freeze is still impacting hiring. Is it still impacting hiring?
    Mr. Black. Like I said, it is not really a hiring freeze at 
this point. We do have some specific instructions as to how we 
go about hiring. Most of our field locations are able to move 
forward with positions at GS-11 and below. We are identifying 
those other positions to ensure that we are filling the most 
critical positions and that positions are being filled at the 
right locations for the right needs.
    Senator Udall. Thank you. Admiral Buchanan?
    Mr. Buchanan. Thank you.
    We have been recruiting and hiring, so it has not impeded 
our ability to hire at the local level and our service units 
where we are providing patient care.
    Senator Udall. You are up and running now and the hiring 
freeze is not impacting you?
    Mr. Buchanan. Yes, sir.
    Senator Udall. Tony.
    Mr. Dearman. Thank you, Senator.
    The hiring freeze has been lifted as we discussed. We are 
moving forward at the contract education level and our school 
levels. As far as the GAO, with that, we have some very 
resilient staff in our offices and schools. We have been able 
to take the time and actually get arms around the GAO and plan 
to get those implemented.
    Senator Udall. Chairman Hoeven, I think you would join me 
in this. We know, on a bipartisan basis, both in the Bush and 
Obama Administrations, by this point, we usually have senior 
staff in these areas. We do not have them. I do not want to put 
you on the spot in any way.
    Melissa, I really believe it has to do with putting 
accountable people in place at the top, who are there, and will 
be in front of the Committee on a regular basis. They will give 
us the deadlines, the implementation and how they are going to 
get that done. Melissa, could you speak to that, both the 
hiring freeze and having senior staff in place in all of the 
positions? All the people we have in front of us are acting 
people.
    Ms. Emrey-Arras. We have not looked at the hiring freeze 
for this particular work, but I would say the point about 
turnover and stability is really critical. This is something we 
have pointed out previously, that there has been extensive 
turnover in leadership positions which has led, we believe, to 
management challenges, especially at BIE.
    In terms of the hiring, we think it would be helpful to 
guide the hiring with a workforce plan. We have two outstanding 
recommendations to do workforce planning so you know what you 
are hiring for, so you know how many people you need, and you 
need to know what skills they need to have.
    We found BIE folks who were doing reviews of single audits 
who told us they were not accountants, and they did not know 
what they were looking at. Yet they were responsible for 
overseeing school spending. You need to have a workforce plan 
to guide the hiring going forward.
    Senator Udall. Thank you very much.
    I can tell you that constituents of mine who visit 
Washington and have meetings within all of these agencies do 
not feel, at the senior level, there is guidance because folks 
are in an acting position rather than having people in the 
position who are running the departments and doing the things 
that you, the GAO and this Committee wants them to do.
    Mr. Chairman, thank you for your courtesies in allowing me 
to go over a little.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. I have one more question 
if that is all right.
    I have heard from my constituents as well. I work very 
closely with them. This extra question comes from a Chairman I 
just had the opportunity to sit down and talk with. It 
addresses Indian Health Service.
    I understand that the Indian Health Service made a mistake 
in overestimating the amount required in Fiscal Year 2017 to 
fully fund contract support cost payments due tribes under self 
determination contracts and self governance compacts.
    I am kind of curious as to what explains this error. How 
much is needed in Fiscal Year 2018 and what assurance can you 
give the Committee that, going forward, your estimates are 
going to be accurate?
    Mr. Buchanan. I do not have that information in front of 
me. I would be happy to submit that for the record.
    Senator Cortez Masto. Thank you. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    This is for Ms. Emrey-Arras. Are IHS, BIA and BIE able to 
attract the qualified professionals they need? If not, what can 
they do?
    Ms. Emrey-Arras. Let me check with my colleagues to see if 
they have covered that in their areas. It looks like we have in 
the health care area.
    Ms. King. Senator, in the health care area, we have noted 
longstanding vacancies. For example, in the last several years, 
at least four of the area offices said they had several acting 
area directors. This kind of turnover causes problems for the 
agency.
    We have some ongoing work where we are drilling down on 
staffing issues. We hope to be able to have some constructive 
suggestions for the agency.
    The Chairman. Are there any concrete recommendations you 
would have for getting qualified people in key positions? 
Obviously, it starts at the top, as the Vice Chairman said. He 
is right about that. If there other recommendations for getting 
key people into key positions, I think that would be very 
helpful.
    Ms. King. Thank you.
    The Chairman. Secretary Black, the GAO highlights in its 
report on Indian energy that the BIA did not track and review 
response times for energy development documents from tribes. 
That is necessary, of course, if you are going to understand 
what your turnaround time is and whether or not you are being 
responsive.
    My question is, what are you doing to address that? How are 
you setting up some type of process to make sure you are 
tracking those times and giving timely and quality service?
    Mr. Black. Thank you for the question, Senator Hoeven.
    Through our Indian Energy Minerals Steering Committee, we 
have brought together a group of experts in the field to 
identify identifiers in the key fields that we need to be able 
to track to better identify where we are in processing energy-
related documents, whether they be rights-of-way, 
communitization agreements, or applications for a permit to 
drill.
    We also are working with our partners over at BLM, who have 
the responsibility for APDs to ensure we are coordinating with 
them and identifying any roadblocks in that process that are 
hindering us.
    For the communitization agreements, we recently issued a 
national policy memorandum that identifies key timeframes and 
stuff in there. We are also developing right now a Google 
platform tracking system for all of the CAs that we are 
processing out there in Indian Country.
    That allows us to identify not only where we are in the 
process and how many we have backlogged, but any areas where we 
are seeing some major holdups or anything like that so we can 
better address those as we move forward. We will be doing that 
with all of our different things.
    Leases, we are going to work with our TAAMS system to 
incorporate different fields in there that could be as simple 
as knowing when the lease comes into our office, when it gets 
processed, and when the NEPA activities are completed, so we 
can track them all the way through the process and identify any 
areas where we see holdups or roadblocks.
    The Chairman. What is your timeline for getting those 
things in place?
    Mr. Black. I cannot remember exactly. I want to say we are 
working toward those for either the close of 2017 or sometime 
after that, but I will get back to you on that.
    The Chairman. You will provide us with the timelines, 
because we are going to invite you back as well to talk about 
it probably no later than the end of July.
    Mr. Black. Okay.
    The Chairman. If you turn your head to your left and gaze 
up, you will see a very nice blanket that was presented to us 
at Cankdeska Cikana Tribal College in North Dakota. I think it 
looks nice there, don't you?
    Mr. Black. It looks great up there, sir.
    The Chairman. They showed us wonderful hospitality at our 
field hearing. I want to commend the president of the tribal 
college and all of her people for the fine job they did and 
express my appreciation to them.
    Mr. Black. Yes, very much so.
    The Chairman. I want to thank you for being there and also 
for your willingness to help on some of the issues we talked 
about.
    Mr. Black. Certainly.
    The Chairman. I would ask Admiral Buchanan, there was one 
recommendation I think IHS disagreed with relative to staffing. 
Of the other recommendations, about 14 recommendations, are 
there any other recommendations the GAO made that you do not 
agree with?
    Mr. Buchanan. We agree with the recommendations and are 
actively working to correct those.
    The Chairman. Thank you. Vice Chairman Udall?
    Senator Udall. Thank you, Mr. Chairman.
    Admiral Buchanan, in your written testimony, you said IHS 
Medicaid reimbursements increased 21 percent since 2012. Then 
you note, ``In all IHS areas, we have programs that are able to 
purchase health care beyond the medical priority 1.''
    We all know beyond medical priority 1. When you have 
medical 1, you are really talking about life and limb, so going 
beyond that is something really good for the community. Exactly 
how many purchased referred care programs are able to recover 
requests beyond the medical priority 1?
    Mr. Buchanan. We are actively providing guidance to our PRC 
programs to make sure patient safety is a premium for us. I do 
not have the exact number in front of me to give you but I 
would be happy to submit that to the record.
    Senator Udall. That would be great.
    Is the 21 percent increase in Medicaid reimbursements 
responsible for the expansion of coverage under purchased 
referred care?
    Mr. Buchanan. The increase?
    Senator Udall. Yes, the 21 percent increase in Medicaid 
reimbursements I quoted that you mentioned in your testimony, 
are those Medicaid reimbursements responsible for the expansion 
of coverage under purchased referred care, PRC?
    Mr. Buchanan. Yes, with that additional savings, we are 
able to increase our PRC access to care and provide more 
services to our patients.
    Senator Udall. Given the numbers in the statements you just 
made, how would rolling back Medicaid expansion impact IHS 
service delivery?
    Mr. Buchanan. I do not have those figures in front of me.
    Senator Udall. You have obviously seen a significant influx 
as a result of Medicaid. If you take that Medicaid money, you 
are going to end up rolling back a lot of the achievements you 
have made, isn't that true?
    Mr. Buchanan. Being a former CEO, we place a premium on 
those third party collections, Medicaid, Medicare and private 
insurance. We also saw some increases in private insurance 
during that time. Focusing on third party collections allows us 
to increase services for our patients.
    Senator Udall. Thank you very much.
    Melissa, what sort of oversight benefits or additional 
management resources usually result from the inclusion in the 
high risk category?
    Ms. Emrey-Arras. When an agency or program area is put on 
the high risk list, we really focus on it. This is something we 
give a lot of attention to. We do a lot of additional work on 
these areas and really try to hold the agencies' feet to the 
fire on making progress.
    Senator Udall. Thank you.
    I also wanted to focus on workforce. Given the high levels 
of leadership turnover at BIE and IHS, one of GAO's 
recommendations for both agencies is to develop contingency and 
succession planning for key positions.
    This question is for BIE and IHS. I apologize, Mr. Dearman, 
you are not acting, so I said that earlier. It is just that the 
two folks here, Mike and Admiral Buchanan, are.
    Mr. Dearman and Admiral Buchanan, how are your agencies 
working to ensure all administrative duties are fulfilled in 
the face of frequent turnover?
    Mr. Dearman. With us being able to go out and hire 
positions, looking at GAO's recommendations, we are moving 
forward in working with our interagency Indian Affairs 
workgroups because there are some functions that we have to 
rely on other agencies through BIA.
    As we transition some of the workforce to us, we have to 
make sure of our staff. An example would be school safety. As 
we inherit school safety, our staff will be trained so there 
will be a transition period.
    We are addressing first and foremost as a priority, the GAO 
recommendations to make sure that we have the personnel and the 
workforce to address the recommendations that have been put in 
place.
    Senator Udall. Admiral Buchanan.
    Mr. Buchanan. We have developed succession plans at 
headquarters and office director level, so we have those in 
place. We are working on creating leadership training academies 
for our senior leaders. We are rotating folks through our 
headquarters office to provide additional training, to mentor, 
coach and make sure they are adequately trained to accept those 
senior level positions.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    May I suggest that once we finish with our questions that 
the witnesses could repeat their testimony?
    The Chairman. We will take that under advisement.
    [Laughter.]
    Senator Franken. Okay. Thank you.
    Thank you all for your testimony.
    You brought up sort of a follow up, Ms. Emrey-Arras. I am 
curious about this for our oversight as a committee. How does 
this work? We are now saying these are at high risk, energy, 
education and health care. How can we not allow this to go a 
long time and come back with another report like this? How do 
we, as a committee, do our oversight? How does GAO do it? How 
can we best stay on top of you?
    Ms. Emrey-Arras. Thank you for the question.
    I think, as demonstrated so far in this hearing, the idea 
of having agencies provide frequent progress reports to this 
Committee would be an excellent idea; to talk to the agencies 
and have the agencies come up and say, this is where we are in 
implementing these recommendations, these are our dates.
    Some things are just taking far longer than they should. 
For example, having basic written procedures to oversee school 
spending is not something that should take multiple years. Yet, 
that is taking multiple years to have basic instructions on how 
to oversee school spending.
    I would say any kind of additional pressure from this 
Committee to expedite processes would be very much welcomed.
    Senator Franken. Mr. Dearman, would that be welcomed?
    Mr. Dearman. Absolutely. We have taken the GAO 
recommendations and made them a priority, Senator. We are going 
to move forward in getting them implemented.
    Senator Franken. Admiral, I know some people who worked at 
HHS under the Obama Administration who have left since the new 
Administration came in. Some of them might need jobs. They are 
pretty good administrators is what I am saying.
    Right now, IHS has a 20 percent vacancy rate for health 
care professionals, including physicians and nurses. Some of 
the challenges that contribute to the lack of qualified staff 
at IHS facilities include difficulty providing competitive 
salaries, lack of training facilities, lack of suitable 
housing, schools and community resources for health care 
professionals and their families.
    I think you experience the same thing in education. I 
mentioned this in my opening statement. To recruit a doctor or 
a teacher, their spouse is going to be saying, what school are 
my kids going to go to, what health care are my kids going to 
get? There is a sort of continuing cycle.
    Ms. Emrey-Arras, what do you think needs to happen both 
inside and outside of IHS to make IHS facilities places where 
qualified health professionals want to work and live in that 
area? I think the Chairman may have asked that of you a bit 
earlier or something like that.
    Ms. Emrey-Arras. I will defer to my colleague, Kathy King, 
the Director of Health Care Services.
    Senator Franken. Thank you. It is good to see you. Welcome.
    Ms. King. Thank you.
    Senator, we have current work underway looking at that. We 
have heard that the VA has better hiring authorities than IHS. 
That is something we are examining in the course of our current 
work.
    We agree there are some difficulties common in rural areas, 
especially remote rural areas. We are hoping to look at that 
and see if we can find some best practices elsewhere that might 
be applicable to IHS.
    Senator Franken. How much of Indian Country is in remote 
and rural areas?
    Ms. King. I do not have a number right of the top but it is 
a fair amount. Some are also located adjacent to more 
metropolitan areas.
    Senator Franken. Admiral?
    Mr. Buchanan. There are a lot of rural areas. As she said, 
it is hard to recruit in those rural areas. As you referenced, 
it takes a comprehensive approach to bring in those physicians. 
Schools and housing is one of the challenges, definitely in 
trying to put the physician into a location that the next 
shopping area is two and a half hours away. Just to get food is 
a challenge.
    It is hard to recruit. Other facilities or private 
facilities have those same challenges in a rural setting.
    Senator Franken. Can I ask the Admiral a little bit about 
the opioid crisis in Indian Country? How does the IHS 
collaborate with local, State and regional stakeholders to 
create interventions to combat the opioid epidemic?
    Mr. Buchanan. It truly is a challenging situation. It is 
going to take State, IHS and all our partners working together 
to fight this epidemic that is happening. We have been 
educating tribal leaders on what IHS is doing. We are working 
with our partners in BIA to provide certain medications to 
assist with combating the opioid issues. We are looking to all 
partners to address the issue.
    Senator Franken. I hope you will partner with tribes and 
the Indian community to develop effective culturally-based 
interventions.
    Mr. Buchanan. Definitely, sir. We have actually established 
what we are calling the HOPE Charter Committee where we look at 
all these types of issues and come up with recommendations. We 
will definitely be working with tribes going forward.
    Senator Franken. Thank you.
    I am running over my time. Thank you, Mr. Chairman, for 
your indulgence. Thank you for calling this hearing. I hope we 
can do frequent oversight.
    The Chairman. One of the things we talked about is we will 
have them all back probably by the end of July. We did ask for 
some timeframes on responses both in terms of what those 
responses are and implementation. I anticipate that we will 
have all of the witnesses and the GAO back by the end of July 
for a progress report.
    Director Dearman, I brought up one case, a cyber attack, 
where money was taken from one the BIE schools, $1.7 million. 
There was $8 million in the account, so they could have gotten 
even more. Half a million was recovered, so the loss was $1.2 
million. What is being done to prevent that kind of thing 
happening in the future?
    Mr. Dearman. Thank you, Senator.
    We have actually initiated some training. We have to get 
down to the school level. I say we are going back to old 
school. We are going to actually start implementing training 
from the school level up. In the past, central office has 
controlled so much that we have not gotten down into the 
schools.
    It was actually our Performance and Accountability Division 
monitoring program that actually discovered the funds. We have 
implemented a monitoring system that goes in and does 
monitoring from our schools. As we add positions to our 
organizational chart, we will build that even stronger, not 
actually add positions, but hire positions into our 
organization. This will strengthen our ability to go out and 
monitor our expenditures.
    The Chairman. In 2014, the BIE Study Group report 
discovered that approximately 80 tribally-operated BIE schools 
retained approximately a total of $125 million in unspent 
funds. The report cites a unique provision in the tribally-
controlled schools Act that encourages schools to not spend 
funding they receive from the BIE and the Department of 
Education. What is going on? Why would they not be utilizing 
those funds? Can you explain that and what is being done about 
it?
    Mr. Dearman. What will be done about that, sir, is as we 
increase our organization, when we start bringing on the 
positions within our organization, we are going to provide 
technical assistance with our tribally-controlled schools and 
their tribes to make sure that money is actually spent where it 
needs to go. That is what we can do moving forward.
    The Chairman. Do you have an update on the current amount 
of unspent funds?
    Mr. Dearman. No, I do not, sir.
    The Chairman. You could get back to us with that?
    Mr. Dearman. Yes, we will get back to you.
    The Chairman. And a progress report in terms of what you 
are doing about it?
    Mr. Dearman. Yes.
    The Chairman. That completes my questions for right now.
    Vice Chairman?
    Senator Udall. Thank you, Mr. Chairman.
    Last year, the IHS began an agency-wide systems improvement 
effort now known as the Quality Improvement Framework. Admiral 
Buchanan, what kind of tribal input did the IHS seek when 
designating the framework?
    Mr. Buchanan. Thank you for the question.
    We went through tribal consultation before the framework 
was released in November of 2016.
    Senator Udall. How were the GAO's recommendations accounted 
for in its design?
    Mr. Buchanan. They were taken into account for sure. Some 
of the priorities can be highlighted in those areas. I know the 
Committee is looking for organizational capacity and 
accountability. That is one of the main priorities within the 
framework.
    Senator Udall. Admiral, I know you are in an acting 
position until the IHS director is confirmed. Until then, I am 
concerned that the framework will stall and much needed 
improvements will fail to be implemented.
    Is IHS currently implementing the Quality Improvement 
Framework?
    Mr. Buchanan. IHS is currently implementing the Quality 
Framework but I want to assure you that even though I am in an 
acting capacity, I take that first piece of acting as act and 
do something. That is what we are doing. We are not waiting for 
a person to be confirmed. We are moving forward because we 
cannot wait because it is patients we are seeing. That is the 
focus of everything that we do.
    Senator Udall. How is it working, the Quality Improvement 
Framework?
    Mr. Buchanan. As mentioned earlier, the wait time issue 
brought up earlier, we are addressing that. That is part of the 
Quality Framework, one of the priorities within the framework.
    In my testimony, there were some credentialing initiatives 
that we have undertaken. We made that award and that will be 
rolling out very, very soon. We are using some pilot sites to 
roll that out.
    We are also making sure accreditation of our facilities, 
another piece of the Quality Framework, is being addressed. We 
are specifically working with one organization to accredit our 
hospitals throughout IHS.
    Senator Udall. Admiral, would you recommend to the new 
leadership that the framework continue?
    Mr. Buchanan. Yes, sir, I would. It is a framework that can 
modify and morph over time specific to the needs, a living 
document, but with five priorities in place, it is a good 
framework.
    I want to leave whoever is the confirmed IHS Director a 
working document, a working health care delivery system going 
forward that they can take and move forward with the GAO's and 
OIG's recommendations.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman. Mr. Chairman, are you doing one 
more round?
    The Chairman. No, I am finished.
    Senator Udall. Okay. I just want to do one more question 
with Tony Dearman.
    BIE is in the middle of an administrative reorganization 
set in motion during Secretary Jewell's tenure. Mr. Dearman, as 
I am sure you are aware, Indian Country has concerns with how 
this reorganization is being implemented.
    Would you recommend the reorganization continue as mandated 
or are there changes in the works?
    Mr. Dearman. Thank you, Senator. We are moving forward with 
the reorganization that is in place. We have tried to get out 
and visit with the tribes. I have actually been visiting with 
some of the Lieutenant Governors and Governors of some of the 
Pueblos.
    If there are concerns, we would ask, please contact us and 
we will sit down with people and explain and answer any 
questions. If there are any changes that come along with the 
reorganization, it will be through consultation.
    Senator Udall. How will you engage with tribal stakeholders 
and the GAO to improve BIE's reorganization efforts and 
increase transparency?
    Mr. Dearman. A very good question. As you are aware, not 
one size fits all in our tribal capacities and even in our 
schools. In rolling this out and developing GAO-15-121, we will 
actually be talking to the tribes and looking at different 
situations because it is not just going to cover our BIE-
operated schools; it has to cover and support our tribally-
controlled schools as well. It has to cover a wide range of 
different schools, settings and tribes.
    Senator Udall. Melissa, what improvements would GAO make to 
BIE's reorganization efforts?
    Ms. Emrey-Arras. We do not have any particular position 
regarding BIE's reorganization but we think at the end of the 
day, children need to be in safe facilities. However way that 
is accomplished, we would be delighted. At this point in time, 
that is not the case.
    Senator Udall. Thank you.
    Mr. Chairman, this is not a question but I would just like 
to emphasize that from many of the Senators who showed up today 
you hear a frustration and wanting things to operate a lot 
better in Indian Country, whether education, health care, 
energy or all the various areas.
    I just want to say the GAO listing this as a high risk 
opportunity is a chance for us to work together to work with 
the new people that come in the next Administration and say, we 
are going to get this done and move this forward.
    I hope you get the signal from us, not only is there 
criticism, but we are going to do everything we can in our 
roles to try to encourage everyone to set goals, implement, get 
things done, and improve this situation.
    Thank you very much.
    The Chairman. I think that is right, Vice Chairman Udall.
    For all three of you, we are going to have you back in 
approximately several months, say by the end of July. We will 
look for specific progress on the items brought up today. We 
will also ask the GAO to come because we are going to want you 
to work with us as we track this on, I would say, a relatively 
frequent progress report basis. I would say at our next 
hearing, we will decide how that is working and the next steps.
    Ms. Emrey-Arras?
    Ms. Emrey-Arras. To that end, I would also like to let the 
Committee know we have two additional reports related to school 
safety issues coming out next week. We would also be happy to 
share additional information on that new work with all of you.
    The Chairman. Good. We will look forward to that and 
obviously make that a part of our process here.
    If there are other recommendations on how to proceed, as 
the Vice Chairman and other Senators said, we want to make sure 
we are making progress and tracking progress.
    With that, if there are no more questions, members may 
submit follow-up questions for the record. The hearing record 
will be open for two weeks.
    Again, I want to thank all of you for being here today. We 
look forward to working more with you to make progress on these 
very important issues.
    With that, we are adjourned. Thank you.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of the National Indian Education Association (NIEA)
Introduction
    Thank you for this opportunity to submit testimony regarding the 
Committee's May 17, 2017 hearing on the Government Accounting Office 
High Risk Report (GAO-17-317 High Risk Series). Founded in 1969, the 
National Indian Education Association (NIEA) represents Native 
students, educators, families, communities, and tribes, advocating for 
improved educational opportunities that enable Native students to 
thrive in the classroom and beyond.
The Problems Did Not Develop--and Cannot Be Fixed--Overnight
    First and foremost, we all must acknowledge that the problems 
identified in the Government Accounting Office High Risk Report 
(Report) and discussed at the hearing were not created overnight and 
they will not be solved overnight. Generations of neglect have resulted 
in Bureau of Indian (BIE) school systems that exists today. The systems 
for construction and maintenance of BIE schools, operations, and 
staffing are just a few of the ongoing areas that need significant 
improvement.
    A number of the areas that the GAO identified as needing reform are 
areas that involve the BIE responsibilities, operations, and staff. \1\ 
Some BIE schools have never been adequately built. Others have often 
not received the maintenance funding they need, and have become 
dilapidated as a result. BIE schools also face enormous challenges 
regarding staffing and operations. \2\ Employees are often not placed 
in positions for which they have the necessary skills. BIE lacks staff 
with the expertise required to oversee school expenditures. \3\ Other 
challenges for paying expenses and operations can be attributed to the 
fact that BIE must coordinate with the Bureau of Indian Affairs, which 
operates on a different fiscal year and with different reporting 
systems for audits, for example.
---------------------------------------------------------------------------
    \1\ See GAO, High Risk Series: Progress on Many High-Risk Areas, 
While Substantial Efforts Needed on Others, GAO-17-317 (Feb. 2017)
    \2\ See GAO, Indian Affairs: Better Management and Accountability 
Needed to Improve Indian Education, GAO-13-744 (Sept. 2013).
    \3\ See e.g., GAO, Bureau of Indian Education Needs to Improve 
Oversight of School Spending, GAO-15-121 (Nov. 2014).
---------------------------------------------------------------------------
    Solutions to address the problems created from long standing 
neglect will not be found in quick fixes. Long term tribal engagement 
will be necessary. Sustained, meaningful community engagement will be 
necessary for Native communities to trust schools that have previously 
excluded Native caregivers from engaging with BIE schools. The Reform 
that is currently underway represents this--developed from direct 
tribal input, the current reorganization is an effort to address the 
long-term problems in a systemic way. These efforts must be supported 
and continued through to completion.
The Trust Responsibility for Native Education as it Relates to BIE 
        Reform
    Established through treaties, federal law, and U.S. Supreme Court 
decisions, the federal government's trust responsibility to tribes 
includes the obligation to provide parity in access and equal resources 
to all American Indian and Alaska Native students, regardless of where 
they attend school. The federal government's trust responsibility in 
the field of Native education is a shared responsibility between the 
Administration and Congress for federally recognized Indian tribes.
    With respect to BIE Reform, the trust responsibility requires 
schools that enable Native students to succeed. That means no leaking 
roofs, open floors, air and heating systems that do not work. It means 
that Reform must be completed and it must be supported by Congress to 
make sure BIE serves Native students well.
The Status of Reform and the Resources Necessary
    Over the last five years, the GAO has found numerous challenges to 
the administration of BIE, staffing, and school construction. The BIE 
Reform was undertaken in 2014 to address these problems. Today, BIE is 
still struggling with numerous issues. Staffing continues to be a 
problem. Numerous vacancies in the BIE have been delayed, leading to 
vacancy rates of up to 9 percent in 2017. NIEA is concerned that the 
BIE must have the authority and resources to fill vacancies.
    In addition to staffing, school construction continues to be a 
challenge for the BIE. Over 60 BIE schools are still currently rated in 
``poor'' condition, and construction issues continue to put Native 
students at an educational disadvantage. With respect to the specific 
discussions at the May 17th Senate Committee on Indian Affairs hearing, 
we agree with the urgent need for a long-term school replacement plan 
that would set out priorities for school construction and replacement 
over the next 40-60 years and that would include a plan for adequate 
maintenance funding. We would note, however, that Congress must partner 
with BIE and the tribes to get the plan done, and then to implement it.
Accountability
    NIEA also knows that accountability, in addition to funding, is 
required to ensure that BIE's funding is used to effectively and 
efficiently improve the educational opportunities of Native students. 
We respectfully would like to urge that increased oversight over BIE by 
Congress is a necessary part of shared accountability. The 
accountability that the GAO reports and this Senate Committee on Indian 
Affairs brought has helped reveal problems and spurred BIE forward. 
NIEA asks the Committee to continue that critical, active oversight 
role.
    Accountability also extends to fairness with respect to Native 
schools receiving the resources that Department of Defense schools 
receive. There are only two educational systems for which the federal 
government is directly responsible: Department of Defense (DOD) schools 
and federally operated and federally funded tribal schools. BIE 
schools, however, lag far behind DOD schools in funding, school 
construction, and student achievement. While DOD schools are being 
renovated and remodeled, schools within the BIE system are woefully 
outdated and, in some cases, dangerous for students and staff. As 
America's most vulnerable population, Native students should have equal 
access to resources and opportunities. Congress should fulfill its 
responsibility to Native students by remedying the disparities between 
these two federally operated school systems.
Next Steps to Achieve Results
    NIEA continues to be generally supportive of BIE Reform. We agree 
with the GAO's insights and support Director Tony Dearman's testimony 
at the hearing. We see incremental progress and believe the Committee 
should recognize progress as well.
    At the same time, we urge transparency in the design and execution 
of the Reform in order to include tribal participation, facilitate 
congressional oversight, and ensure that reform fulfills the federal 
government's trust responsibility regarding delivery of trust- and 
treaty-based educational rights. See NIEA Resolution # 2016-E02 and 
#2014-11 atttached.
    We have three recommendations regarding how Reform can be 
undertaken in a way that honors the Federal Government's 
responsibilities, respects the government-to-government relationship 
between tribes and the United States, and achieves much-needed progress 
regarding our Native students' education.
Keep the BIE within the Department of the Interior
    Although reform is needed, it continues to be essential that Native 
education remain the purview of the BIE and that BIE remains housed 
within the Department of Interior, which has extensive experience 
carrying out the United States' trust responsibility. Tribal leaders 
have repeatedly stated that the BIE should stay within the Department 
of Interior. NIEA joins tribes in strongly opposing any effort to move 
Native education to the Department of Education. However, we look 
forward to follow-up hearings to determine what the BIE and the 
Department of Education are doing to work together to address the needs 
of Native students.
Follow-up with Hearings with Both BIA and BIE Officials
    As stated, over 60 BIE schools currently rated in ``poor'' 
condition. Native children are learning in buildings that are crumbling 
around them. We appreciate the attention that has been paid to the 
dilapidated Bug-O-Nay-Ge-Shig school. This school is, unfortunately, 
representative of the significant problems facing schools that linger 
on the BIE's school construction list. Additional funds for facilities 
and maintenance are desperately needed so that the BIE can reduce the 
construction and repair backlog, addressing schools in the order they 
appear on the BIE construction list so that schools that have long 
awaited facilities funding will not continue to be neglected. We also 
urge the completion of the long-term school replacement plan and 
increased oversight over school construction funds to ensure the 
effective administration of federal funds.
Continue Oversight of Reform
    As NIEA has previously stated, and has expressed in Resolution # 
2014-11 and more recently in #2016-E02, continued congressional 
oversight over the BIE reform process is necessary. As the reform moves 
forward to completion, details of the reform should continue to be made 
public, tribal input should be prioritized, and congressional oversight 
should continue.
Conclusion
    We thank the Committee for holding this oversight hearing. It is 
precisely hearings and oversight like this that has and will help 
address the concerns included in this. We urge Congress and the 
Administration to use this opportunity to work closely with tribes, who 
must be central to better serving students attending BIE schools. 
Finally, we firmly believe that self-governance in education is the 
answer to the current crisis in the Native education system: Tribes 
have demonstrated time and time again that we are better equipped to 
address the needs of our own peoples.
    Working together, with mutual commitment and bipartisan support 
from Congress, we continue to believe that the best way forward is to 
both hold BIE accountable and invest resources to further tribal self-
determination in education and deliver Native students the education 
they need to succeed.

    Attachments

                       NIEA Resolution 2016-E-02
 relating to legal and policy issues concerning the reorganization of 
 the bureau of indian education (bie) to portions of its implementation
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians, and provides a forum to discuss 
and act upon issues affecting the education of Indian and Native 
people; and
    WHEREAS, the BIE is currently in the process of reorganizing its 
structure in such a way that violates various provisions of the 
governing statute, namely the organizational and operational provisions 
of PL 95-561; and
    WHEREAS, in spite of numerous efforts from members of this 
organization directly involved with BIE education programs at the local 
and tribal level, the BIE is going forward with its reorganization 
without responding to the concerns of the tribal entities in violation 
of the consultation requirements of 25 USC 2011; and
    WHEREAS, the organization changes proposed by the BIE undermines 
the role of local and agency school boards and confuses the lines of 
authority within BIE, and BIE ignores specific GAO reports that have 
made specific recommendations concerning the organizational 
deficiencies of BIE, such recommendations have been endorsed by the 
Congressional appropriations committees; and
    WHEREAS, the instructional improvement oriented policies embedded 
in the reorganization could have easily been implemented with a major 
restructuring that does not violate the law.
    THEREFORE BE IT RESOLVED, that the National Indian Education 
Association passed resolution 2014-11 on BIE implementation in 2014 and 
seeks to make sure BIE is accountable and serves Native students 
optimally through its organizational structure; and
    BE IT FURTHER RESOLVED that on behalf of its member constituents, 
NIEA renews our requests for a thorough legal and policy review of the 
BIE reorganization prior to any further implementation; and
    BE IT FURTHER RESOLVED that within the next two weeks, NIEA take 
action to implement this resolution; and
    BE IT FINALLY RESOLVED that this resolution shall be the policy of 
NIEA until it is withdrawn or modified by subsequent resolution.
C E R T I F I C A T I O N
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
October 7th, 2016 at which a quorum of the membership was present.
        Patricia Whitefoot, President

                        NIEA Resolution 2014-11
  title: support for congressional oversight concerning the bureau of 
        indian education restructuring and blue print for reform
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the federal government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, the Obama Administration has asserted broad executive 
authority in implementing the U.S. Department of the Interior 
Secretarial Order to Transform the Bureau of Indian Education (BIE) as 
based on recommendations of the American Indian Education Study Group's 
Blueprint for Reform; and
    WHEREAS, there is broad based concern throughout Indian country, 
and with treaty tribes in particular, that the BIE realignment is 
creating statutory conflicts and being implemented without a 
congressional authorization and without congressional oversight; and
    WHEREAS, The Secretary of the Interior Sally Jewell has not 
appeared before the Senate Committee on Indian Affairs to provide 
details concerning the BIE restructuring, nor has the Secretary 
provided congressional appropriations committees with a detailed budget 
request to pay for the restructuring; and
    WHEREAS, Administration officials have erroneously testified to the 
Senate Committee on Indian Affairs that there is no opposition from 
Indian country concerning the Blueprint for Reform; and
    WHEREAS, to meet the Federal Government's continuing trust 
responsibility and assess measurable trust standards in the field of 
Indian education including the entire trust corpus for treaty-based 
educational rights delivered through the BIE, it is essential that 
committees of jurisdiction in both the U.S. House of Representatives 
and U. S. Senate provide congressional oversight on executive actions 
concerning the BIE;
    NOW THEREFORE BE IT RESOLVED, that the National Indian Education 
Association directs the Board and Executive Director to request a 
congressional investigation into the Bureau of Indian Education 
restructuring and Blueprint for Reform to ascertain if the Secretarial 
Order creates a statutory conflict and to document Department of the 
Interior proposed offsets to pay for the restructuring; and
    BE IT FURTHER RESOLVED, that the National Indian Education 
Association directs the Board and Executive Director to request 
oversight hearings by the Senate Committee on Indian Affairs and House 
Education and Workforce Committee and House Committee on Natural 
Resources and other appropriate congressional committees regarding the 
Bureau of Indian Education restructuring and Blueprint for Reform.
C E R T I F I C A T I O N
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
October 18, 2014 at which a quorum of the membership was present.
        Melvin Monette, President
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                          Melissa Emrey-Arras
    Question 1. The findings from the Government Accountability Office 
we're exploring today come as no surprise but are still damning. As Ms. 
Emery-Arras testifies, ``Interior and HHS have ineffectively 
administered and implemented Indian education and health care programs 
and mismanaged Indian energy resources'' in a handful of important 
areas. By most estimations, this is a failing grade. Ms. Emery-Arras, 
exactly how many recommendations has GAO made to the respective 
agencies represented here on the witness panel- BIE, BIA, and IHS-that 
have not yet been implemented?

    Answer.

    Education

    We have made 23 recommendations to Indian Affairs that remain open, 
including 12 recommendations in 2 reports on Indian school safety and 
construction issued on May 24, 2017.

    Energy

    We made 14 recommendations to BIA that have not yet been 
implemented.

    Health care

    We have made 13 recommendations to IHS that have not yet been 
implemented. We have also made one Matter for Congressional 
Consideration that remains unaddressed.

    Question 2. And how long has it been since these recommendations 
were made?

    Answer.

    Education

    Of the 23 recommendations on Indian education that remain open, 3 
were made in 2013, 4 were made in 2014, 4 were made in 2016, and 12 
were made in 2017.

    Energy

    The 14 recommendations were made in 3 reports issued between June 
2015 and November 2016.

    Health care

    Of the IHS recommendations that remain open, 2 were made in 2011, 3 
were made in 2012, 4 were made in 2013, 2 were made in 2016, and 2 were 
made in 2017.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Melissa Emrey-Arras
    Question 1a. The report discussed the importance of appropriate and 
level staffing, particularly the need to efficiently replace key 
personnel as vacancies become apparent. Currently, there are over 1,550 
job vacancies across the IHS system. Staffing is an issue that needs to 
be seriously addressed by Congress and the Department. While the IHS 
did get an exemption from the Trump administration's federal hiring 
freeze to hire medical staff, the IHS is still restricted from hiring 
other critical hospital administration personnel.
    As the department moves forward with identifying service gaps, does 
the GAO plan to analyze and report on the negative effect the Executive 
Order has on patient care in Indian country?
    Answer. We are conducting ongoing work on the staffing vacancies at 
IHS. Within the scope of this work, we plan to take the hiring freeze 
into consideration when we analyze the information and draft our 
findings.

    Question 1b. How did the GAO take into account the hiring freeze at 
the Department of Health and Human Services before making any of its 
recommendations? Was this information intentionally omitted? If so, 
why?
    Answer. GAO's high risk report was based on findings and 
recommendations from reports on IHS that predate the hiring freeze. We 
are conducting ongoing work on the staffing vacancies at IHS. Within 
the scope of this work, we plan to take the hiring freeze into 
consideration when we analyze the information and draft our findings.

    Question 2. When CMS or the department has found violations of 
patient care at the IHS operated facilities, how has the GAO 
investigated these findings? What action have you suggested and 
followed up on?
    Answer. GAO does not follow-up on individual findings reported by 
CMS or HHS. For our report on IHS's oversight of quality of care (GAO-
17-181), we reviewed evidence of IHS quality oversight, including 
findings from interim IHS audits, which we include in our report. For 
example, one such audit found defective lead aprons at an IHS medical 
facility, but IHS officials stated these deficiencies had been 
corrected. We also found that IHS did not have agency-wide measures for 
the quality of care in its facilities, and that IHS's oversight of 
quality was limited and inconsistent. We recommended that IHS ensure 
that agency-wide standards for the quality of care provided in its 
federally operated facilities are developed, that facility performance 
in meeting these standards is systematically monitored over time, and 
that enhancements are made to its adverse event reporting system.

    Question 3. Outside of Las Vegas and Reno, Nevada is a very rural 
state. Many of our tribes and rural communities are hundreds of miles 
away from large urban areas. As the Tribal Chairman from the Shoshone-
Paiute Tribes of Duck Valley told me in a meeting yesterday, their 
reservation is 100 miles in any direction to a non-IHS medical 
facility. If anyone, whether a tribal member or not, needs immediate 
medical care, often their only option is an IHS facility. That puts an 
incredible strain on the system. How does the GAO report take into 
account outlier situations like this? If not, why?
    Answer. We have not come across this issue during the course of our 
IHS work.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                     to Rear Admiral Chris Buchanan
    Question 1. Many of the challenges experienced by IHS are a direct 
result of the poor funding status of Indian Tribes. How do your offices 
work regionally in identifying the needs in different states and 
regions?
    Answer. The Indian Health Service (IHS) has a unique government-to-
government relationship with American Indian and Alaska Native tribal 
governments and is committed to regular and meaningful consultation and 
collaboration with these Tribes. Consultation is considered an 
essential element for a sound and productive relationship with Tribes. 
It is IHS policy that consultation occurs when there is a critical 
event that may impact Tribes, new or revised policies or programs are 
proposed, or the IHS budget request and annual performance plan are 
being developed. This process is especially critical during the tribal 
budget formulation/consultation process.
    The IHS manages multiple fiscal-year budgets on a regular basis. 
The IHS budget formulation process is comprised of annual forums for 
Indian Tribes to interact with the IHS to provide program priorities, 
policies, and budget recommendations. In order to ensure Tribes are 
able to provide meaningful input for the IHS budget request, the IHS 
follows a timeframe that coincides with the Department of Health and 
Human Services' budget schedule: (1) October--December: Each of the 12 
IHS Areas hold budget formulation work sessions to provide technical 
assistance, identify local and/or regional health priorities; (2) 
February--March: IHS conducts a national IHS budget formulation work 
session that consolidates the work conducted at the Area level; (3) 
May--Tribes present national priorities and recommendations at the 
National HHS Tribal Budget Formulation and Consultation Session. The 
annual budget formulation and consultation process ensures the 
priorities and budget recommendations of IHS, tribal, and urban 
stakeholders are discussed and reviewed. In addition, IHS uses advisory 
committees to provide leadership, advocacy, and guidance to the 
Director on policy and program matters.

    Question 2. In understanding best practices by IHS and self-
governance Tribes, it has been pointed out to me that the health care 
system is often is working well for some of these communities. How is 
the IHS regional administration sharing best practices among Regional 
Directors?
    Answer. The 2016-2017 IHS Quality Framework encourages regular, 
ongoing communications to share information about best practices across 
IHS. IHS has numerous mechanisms by which best practices are shared 
among different IHS Areas. The IHS National Councils, comprised of 
different professional specialties, meet and communicate regularly 
about challenges and best practices. Examples of these Councils include 
the National Councils of Chief Medical Officers, Nurse Leadership, 
Clinical Directors, Chief Executive Officers, Chief Clinical 
Consultants, Behavioral Health, Oral Health, Pharmacy, and Laboratory. 
Cross Council communication happens as needed and may be facilitated by 
and/or include Area and/or Headquarters leadership and staff. Councils 
meet in person annually at a National Combined Council meeting. In 
addition, Inter-Council Workgroups are formed to address cross-cutting 
issues such as Opioids, Suicide, or Workforce recruitment and 
retention.
    Another mechanism through which IHS shares best practices 
throughout the system is through the IHS Clinical Support Center and 
the Telebehavioral Health Center of Excellence. This free education 
enables providers to learn and master new skills especially from rural 
and remote sites through a platform that easily connects with providers 
in low bandwidth areas and via mobile devices. Topics are wide-ranging 
such as Fetal Alcohol Spectrum Disorder, Trauma Informed Care, 
Utilizing Data with Dashboards, Leadership Training, Medication-
Assisted Treatment for Chronic Opioid Use and many more.
    IHS also collaborates with HealthInsight, which is a Quality 
Improvement Organization (QIO), and our hospitals to improve the health 
of American Indian and Alaska Native people by implementing and sharing 
best practices through the Partnership to Advance Tribal Health (PATH). 
The aim of PATH is to continuously improve the quality of care by 
implementing best health care practices and identifying other 
operational improvement needs. This three year initiative is being 
funded by the Center for Standards and Quality at the Centers for 
Medicare & Medicaid Services (CMS).
    IHS continues to share best practices through the Improving Patient 
Care (IPC) Initiative. The Indian Health Service (IHS) launched the 
Improving Patient Care (IPC) program in 2008 to improve the quality of 
health care and to provide greater access to care for American Indians 
and Alaska Natives using the Patient Centered Medical Home (PCMH) 
model. Now, nine years after the launch, the IPC Program continues to 
provide training and technical assistance, supporting Indian health 
facilities to achieve success in improving patient access to care, 
implementing clinical quality enhancements and promoting patient 
satisfaction. You can learn more about IPC at https://www.ihs.gov/ipc.
    Each year, the Department of Health and Human Services (HHS), IHS 
and Department of the Interior (DOI) Bureau of Indian Affairs (BIA) and 
Tribes host an annual Tribal Self-Governance Consultation Conference to 
share best practices, discuss policy issues, and conduct communication, 
education and outreach activities. The IHS Tribal Self-Governance 
Advisory Committee meets four times a year to share best practices and 
to advise the IHS Director on policy issues related to implementation 
of Title V of the ISDEAA. IHS partners with the Tribal Self-Governance 
Communication and Education Tribal Consortium which publishes a 
newsletter, Sovereign Nations, highlighting best practices. Lastly, the 
IHS Office of Tribal Self-Governance hosts a series of ISDEAA Title V 
trainings each year across the IHS Areas.

    Question 3. Question on behalf of Chairman Ted Howard of the 
Shoshone-Paiute Tribe of the Duck Valley: ``I understand that the 
Indian Health Service made a mistake in overestimating the amount 
required in fiscal year 2017 to fully fund contract support cost 
payments due Tribes under self-determination contracts and self-
governance compacts. What explains this error, how much is needed in FY 
2018, and what assurance can you give the Committee that going forward 
your estimates are accurate?''
    Answer. The contract support costs (CSC) amount included in the FY 
2017 budget was for a proposed reclassification of CSC to a mandatory 
appropriation at a specified funding level. Projecting future CSC 
funding need is dependent on several variables, including how many 
additional Tribes might choose to enter into ISDEAA agreements or to 
expand their current agreements. The intent was to estimate a level 
that was sufficient to cover any additional need arising from these 
unknown, variable factors. Moreover, the estimate of CSC need prior to 
the contract period often differs from the final, actual amount that 
will be negotiated after the end of the contract period; therefore, the 
final amount for FY 2017 cannot yet be determined. The IHS' request for 
FY 2017 was estimated to cover the full amount for each Tribe or tribal 
organization, which is not known until the end of their contract terms.
    In the President's FY 2018 Budget Request for IHS, the CSC need 
projection is $718 million and includes a proposal to maintain the 
indefinite, discretionary appropriation. This amount is based on 
continually updated data. The IHS remains dedicated to continually 
tracking and monitoring estimated and final CSC needs and working 
closely with Tribes to understand potential future needs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                    Rear Admiral Michael Weahkee \1\
---------------------------------------------------------------------------
    \1\ Rear Admiral Chris Buchanan served as the Acting Director of 
the Indian Health Service at the time of this hearing. Since then, 
Michael D. Weahkee assumed duties as Acting Director and is currently 
serving in this capacity.
---------------------------------------------------------------------------
GAO Reports and Recommendations
    Question 1. The Government Accountability Office (GAO)'s February 
2017 High Risk Report noted 14 unresolved recommendations for the 
Indian Health Service (IHS). \2\ Your testimony provided a broad 
overview of various improvement initiatives currently underway at the 
Service but did not provide a point-by-point response explaining how 
IHS is addressing each of these unresolved recommendations. Please 
provide a summary and timeline of the Services' plans to address each 
of these unresolved recommendations.
---------------------------------------------------------------------------
    \2\ U.S. Gov't Accountability Office, GAO-17-317, High Risk Series: 
Progress on Many High Risk Areas, While Substantial Efforts Needed on 
Others, at 202 (2017).
---------------------------------------------------------------------------
    Answer. IHS received fourteen recommendations from the GAO reports 
listed on the 2017 High Risk Report, which covered six years and seven 
reports. All recommendations remain open at this time. In early July 
and early August, IHS provided an update to GAO reflecting the current 
progress we are making for each recommendation and requested seven of 
the 14 recommendations be closed. As discussed with Committee staff 
during a formal briefing about the status of our work to address GAO 
recommendations on August 9, 2017, IHS has made significant progress 
and continues to work with GAO to close all recommendations.
    The following table provides a summary of the open recommendations 
for each GAO report and indicates how many for which we have requested 
closure. Details about how IHS is addressing each recommendation 
follow.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

GAO-17-181: Actions Needed to Improve Oversight of Quality of Care
    Recommendation 1. Ensure agency-wide standards for the quality of 
care provided in federally-operated facilities are developed, monitored 
over time, and enhancements are made to the adverse event reporting 
system.
    Agency Progress: IHS named an Acting Deputy Director for Quality in 
2016 and is implementing a system-wide dashboard of performance 
accountability metrics. The accountability dashboard incorporates the 
six dimensions of health, as identified in IOM's report, ``Crossing the 
Quality Chasm: A New Health System for the 21st Century''--patient 
safety, care effectiveness, patient-centeredness, timeliness, care 
efficiency, and equity. IHS is also pilot testing a national Provider 
Credentialing System in four Areas, with the goal of fully implementing 
the system agency-wide by the end of CY 2017. The credentialing policy 
is being updated as well. IHS anticipates an award for a national 
hospital accreditation contract this year and best practices for an 
adverse event reporting system continue to be assessed by the agency.

    Recommendation 2. Develop contingency and succession plans for the 
replacement of key personnel, including Area Directors.
    Agency Progress: In December 2016, IHS developed contingency and 
succession plans, including skills gap analyses and appropriate 
developmental programs for the replacement of key personnel, including 
Area Directors. The December 2016 succession plans are currently being 
updated and will be updated on a semi-annual basis. In addition to the 
contingency and succession plans, IHS has developed leadership training 
academies for senior leaders. For example, staff rotations through IHS 
Headquarters provide additional training for senior level positions. A 
mentoring initiative for those who have recently been promoted to key 
leadership positions has been implemented. The agency has requested 
closure of this recommendation.
GAO-16-333: Actions Needed to Improve Oversight of Patient Wait Times
    Recommendation 1. Develop and communicate specific agency-wide 
standards for patient wait times in federally-operated facilities and 
review experience with timeliness goals set as part of Improving 
Patient Care (IPC).
    Agency Progress: IHS patient wait time standards were established 
in July 2017. A supporting policy document is being developed. IHS is 
developing a communications plan to inform and address questions from 
internal and external stakeholders. An implementation plan is also 
being developed which includes education, data collection, resources, 
monitoring, and target timelines. If sites experience challenges in 
meeting the standards, technical assistance will be provided through 
the Improving Patient Care (IPC) program. Additionally, since IHS 
federally-operated facilities currently collect patient wait time data 
at the Service Unit level, the IPC program, in collaboration with the 
IHS Office of Information Technology, is developing a reporting system 
to support monitoring patient wait time measures and evaluating 
progress at the Area and national levels.

    Recommendation 2. Monitor patient wait times in federally-operated 
facilities and ensure corrective actions are taken when standards are 
not met.
    Agency Progress: IHS is targeting the full implementation of 
Agency-wide standards for wait times by later this year including 
monitoring of the outcome data. IHS is developing an implementation 
plan which includes education, data collection, resources, monitoring, 
and target timelines. If sites experience challenges in meeting the 
standards and/or the target timelines, technical assistance will be 
provided through the Improving Patient Care program. This is consistent 
with the overall IHS objective to promote the Patient Centered Medical 
Home (PCMH) model of care within IHS ambulatory care facilities and the 
IPC focus on building quality improvement skills and knowledge within 
the IHS health care system.
GAO-14-57: Opportunities May Exist to Improve the CHS Program
    Recommendation 1. Modify the claims payment system to separately 
track IHS referrals and self-referrals, revise GPRA measures so they 
distinguish between the two types of referrals and establish separate 
targets.
    Agency Progress: IHS is modifying the data system to track 
separately IHS referrals and emergency self-referrals, where the 
notification requirement and all other requirements of the PRC 
regulations at 42 CFR 136 are met, and are subsequently authorized for 
PRC payment. We expect to be able to provide baseline reporting for CY 
2017. IHS is currently researching industry standards and expects to 
have separate payment timeframe targets for these two referral types.

    Recommendation 2. Improve the alignment between CHS staffing levels 
and workload by revising IHS current practices, where appropriate, to 
allow available funds to be used to pay for CHS program staff.
    Agency Progress: The IHS did not concur with this recommendation 
because historically, Agency policy has been to use Purchased/Referred 
Care (PRC), formerly known as Contract Health Services (CHS), funds 
solely for the purchase of health care services. The agency has 
requested closure of this recommendation.

    Recommendation 3. Proactively develop potential options to 
streamline program eligibility requirements.
    Agency Progress: IHS disseminated information to patients about 
their coverage and ability to access care without obtaining a PRC 
referral. IHS hospitals have worked with the respective States to 
implement presumptive eligibility. The agency has requested closure of 
this recommendation.
GAO-13-272: Capping Payment Rates for Non-hospital Services Could Save 
        Millions of Dollars for CHS
    Recommendation 1. Should Congress decide to cap payments for 
physician and other non-hospital services made through IHS's CHS 
program, IHS should monitor the CHS program patient access in order to 
assess how any new payment rates may benefit or impede the availability 
of care.
    Agency Progress: IHS developed an online PRC Rates Provider 
Tracking tool to monitor the access to physician and other non-hospital 
care. This tool enables PRC programs to document providers that refuse 
to contract for their most favored customer rate or accept the PRC 
rates.
    IHS provided training to the Area PRC officers at a face-to-face 
meeting in December 2016 on how to use the tool. The tool went live in 
January 2017.
    After capping PRC payment rates for non-hospital services, IHS and 
Tribes have realized a savings of more than $139.7 million so far this 
calendar year. PRC savings through June 2017 are listed in the table 
below. All IHS PRC programs participate in the PRC payment rates; 
however, Tribes are not required to participate but may opt-in as 
stated in 25 U.S.C. 45aaa16(e). The additional savings enables IHS and 
tribal providers to deliver more and increase access to health care 
services.
    IHS has requested closure of this recommendation.

             Purchased and Referred Care Savings by Month--January--June, 2017--Federal and Tribal*
----------------------------------------------------------------------------------------------------------------
                    Month                         Federal           Tribal           Total             YTD
----------------------------------------------------------------------------------------------------------------
JAN                                                $6,127,595         $120,168       $6,247,763       $6,247,763
FEB                                                $9,328,068         $781,264      $10,109,332      $16,357,095
MAR                                               $24,002,806       $2,890,466      $26,893,272      $43,250,367
APR                                               $28,747,136         $554,038      $29,301,174      $72,551,541
MAY                                               $31,357,518       $2,113,185      $33,470,703     $106,022,244
JUNE                                              $28,840,636       $4,876,569      $33,717,205     $139,739,449
YTD                                              $128,403,759      $11,335,690     $139,739,449
----------------------------------------------------------------------------------------------------------------
This data includes six (6) tribal programs.

GAO-13-553: Most AI/AN Potentially Eligible for Expanded Health 
        Coverage, but Action Needed to Increase Enrollment
    Recommendation 1. Prepare for the increase in eligibility for 
expanded Medicaid and new coverage options and the need for enrollment 
assistance and billing capacity by realigning current resources and 
personnel to increase capacity.
    Agency Progress: In an effort to improve our enrollment efforts at 
the local level, IHS developed and disseminated a Business Plan 
Template and Template Description in 2013. IHS monitors use of the 
business plan through cascading performance elements in Area Directors' 
and CEOs' performance evaluations.
    IHS sponsored national IHS Partnership Conferences in 2013 and 2016 
that included patient registration and benefits coordination tracks 
that focused on outreach and education. The 2017 IHS Partnership 
Conference with IHS, tribal, and Urban Indian Organization Business 
Offices, PRC coordinators, health information management (HIM), and 
finance staff was held August 22-24. This hands-on training supports 
our front-line staff who are directly involved in the PRC, business 
office and HIM operations.
    IHS also entered into cooperative agreements with the National 
Indian Health Board and National Congress of American Indians to 
conduct consumer outreach, education, training and T/A for Tribes and 
Tribal organizations related to options, enrollment, and exemptions. 
IHS hosted a patient registration and benefits coordination training in 
April 2017 focusing on outreach, education and assistance to patients 
regarding coverage.
GAO-12-446: Action needed to Ensure Equitable Allocation of Resources 
        for the CHS Program
    Recommendation 1. Use variations in levels of available hospital 
services in a formula for allocating CHS funds.
    Agency Progress: Approximately half of the PRC funds are 
distributed through Indian Self-Determination awards and so are 
protected from unilateral reductions or reallocation by the agency, 
absent one of the other circumstances set forth in 25 U.S.C.  
5325(b)(2) or 25 U.S.C.  5388(d)(1)(C)(ii). IHS partners with tribal 
leaders in making PRC fund allocation decisions for directly-operated 
programs. The agency has requested closure of this recommendation.

    Recommendation 2. Use actual counts of CHS users rather than all 
IHS users in a formula for allocating CHS funds that relies on number 
of active users.
    Agency Progress: IHS partners with tribal leaders in making PRC 
fund allocation decisions for directly operated programs. Any future 
changes in allocation methods will undergo tribal consultation. The 
agency has requested closure of this recommendation.

    Recommendation 3. Develop written policies and procedures to 
require Area offices to notify IHS when changes are made to the 
allocations of funds to CHS programs.
    Agency Progress: IHS distributed guidance on PRC allocation of 
funds to Area directors and PRC officers in CY 2016. IHS directs Area 
directors through official PRC allocation of funds distribution memos. 
These memos are official procedural documents that become a part of the 
PRC policy chapter of the Indian Health Manual. The agency has 
requested closure of this recommendation.
GAO-11-767: Increased Oversight Needed to Ensure Accuracy of Data Used 
        for Estimating CHS Need
    Recommendation 1. Develop a written policy documenting how IHS 
evaluates need for the CHS program and disseminate it to Area offices 
and CHS programs.
    Agency Progress: IHS is developing the specific policy and 
procedural guidance, which will be incorporated into the Indian Health 
Manual.

    Recommendation 2. Provide written guidance to CHS programs on a 
process to use when funds are depleted and there is a continued need 
for services and monitor to ensure that appropriate actions are taken.
    Agency Progress: IHS plans to issue written policy and guidance to 
all IHS sites by September 30, 2017.

    Question 2. GAO's High Risk Report notes that many implementation 
decisions are left to individual Area Directors to decide (e.g., 
allocation of Purchased-Referred Care funds among facilities, patient 
wait time standards, operation of IHS facility Governing Boards, etc.). 
\3\ How does IHS propose to improve quality of care across the entire 
system given the level of discretion left to Area offices?
---------------------------------------------------------------------------
    \3\ U.S. Gov't Accountability Office, GAO-17-317, High Risk Series: 
Progress on Many High Risk Areas, While Substantial Efforts Needed on 
Others, at 209-214 (2017).
---------------------------------------------------------------------------
    Answer. IHS is working to standardize policies and procedures 
across the system. Area Office and Service Unit representatives have 
been included as members of the Quality Framework Steering Committee 
(responsible for implementation of system level improvements identified 
in the IHS 2016-2017 Quality Framework). IHS continues working to 
establish the Office of Quality Health Care under the Deputy Director 
of Quality Health Care. This office will continue the work of system 
level quality improvement and patient safety enhancement, ensuring 
sustainment of Quality Framework implementation and providing oversight 
and coordination of information sharing for quality and safety. This 
office will work closely with the IHS Quality Consortium to identify 
best practices, unify processes, and prioritize quality and safety 
initiatives and resources across the IHS system of care.
    A Quality Accountability Dashboard Working Group was established by 
the Steering Committee to develop metrics that will allow oversight and 
management of compliance with policy and regulatory requirements that 
ensure quality and safety of care. IHS expects the measure definitions, 
data collection tool, and dashboard will be ready for use by August 31, 
2017. The dashboard will enable Headquarters and Area Offices to have 
real-time visibility across the IHS system. This will facilitate 
implementation and monitoring of quality measures throughout the system 
over time. The success of this dashboard has also led to efforts to 
develop similar dashboard tools related to three other agency 
priorities: People, Partnerships, and Resources.
    Additionally, a Patient Wait Times Working Group was established by 
the Steering Committee to develop standards for primary care patient 
wait times for appointments. The Working Group completed standard 
development in June 2017: 28 days or less for primary care, non-follow-
up appointments and 48 hours for primary care urgent visit 
appointments. This standard was developed based on review of standards 
from Avera Health, Defense Health Agency, Veterans Health 
Administration, Institute for Healthcare Improvement, and a literature 
search from the National Library of Medicine (using Scopus) on April 
21, 2017, and has been incorporated into a measure for the Quality 
Accountability Dashboard so that it can be monitored routinely and 
improved.
    In early January 2017, hospital Governing Board (GB) Bylaws for 
inpatient acute care hospitals were standardized across IHS. The goal 
of this change was to ensure a baseline of standards IHS-wide, while 
maintaining flexibility for the Areas and service units to accommodate 
needs specific to their locations and service populations. Bylaws must 
now include the following:

  <bullet> Frequency of formal governing board meetings: At least twice 
        per year, but may meet more often if desired/necessary to meet 
        the needs of the service unit.

  <bullet> Membership of governing board: The minimum number of GB 
        members is determined by the Chair (Area Director) and ensures 
        adequate representation of disciplines to carry out the 
        required activities. All GB members have a vote and the 
        majority of voting members must represent the Area Office and 
        may also include similar representation from Service Units.

    --Due to the inherent federal functions of governing federal 
        facilities, members of the Governing Board must be IHS federal 
        employees/officers.

    --Tribal consultation is encouraged through CEO communications with 
        tribal leadership, and tribal representatives may be invited to 
        open forums or town hall meetings in order to provide input.

  <bullet> Meeting Agendas: At a minimum, Governing Board meeting 
        agendas must include the following elements:
    --Quality of Care--including quality improvement and quality 
        assurance/compliance
    --Patient Safety
    --Hospital/Facility Operations

    These three components were communicated to Area Directors for 
immediate incorporation into GB Bylaws for each hospital. Area Offices 
communicated these new requirements to their Service Units within their 
established channels and required verification of incorporation in 
respective GB Bylaws for reporting back to IHS Headquarters.

    Question 2a. Does IHS have a consistent way to capture innovation/
best practices within one service area and share those with other 
service areas?
    Answer. The IHS Improving Patient Care (IPC) Program has been 
providing quality improvement support and guidance since 2008 for 
ambulatory care services. One of its primary goals is to assist IHS, 
Tribal and Urban Indian Health Programs with developing Patient-
Centered Medical Homes. A component of the Program's process is to 
capture innovations and best practices for sharing with all 
participating locations.
    Beginning in 2016, IHS also established a number of forums (in 
addition to the IPC Program) for networking among quality assurance and 
quality improvement staff at all levels of the agency. Quarterly lunch 
time webinars for Service Unit leaders to share lessons learned and 
best practices related to quality and safety have been on-going since 
June 2016. A Quality Managers Listserv has been established to 
communicate and share information among Headquarters, Area Office, and 
Service Unit quality assurance and quality improvement staff. 
Additionally, a monthly webinar series for Area and Service Unit 
Quality Managers is hosted by Headquarters Quality Framework Steering 
Committee staff for real-time communications and information sharing. 
These communications platforms reach wide and varied audiences at all 
levels, support a network of geographically isolated employees, and 
build unity of practice and purpose for quality improvement and patient 
safety.
    IHS has continued its productive partnerships with the Premier Inc. 
Hospital Improvement and Innovation Network (HIIN) and HealthInsight 
New Mexico Quality Improvement Organization (QIO) with its Partnership 
to Advance Tribal Health (PATH). The Premier HIIN provides technical 
assistance and learning platforms to reduce Hospital Acquired 
Conditions and Readmissions. They coach hospital care teams and staff 
on best practices, lessons learned, and quality improvement activities 
aligned with these goals. The HealthInsight NM QIO and PATH are 
providing leadership development learning opportunities, care team 
effectiveness enhancement, patient safety resources, patient/family 
engagement technical assistance, and system level assessments. 
Engagement with both of these quality improvement entities is 
increasing opportunities to identify best practices and innovative 
solutions to improve quality and safety, and adds another layer of 
communication opportunities to share this information across IHS.

    Question 3. GAO testified that inclusion on the biennial High Risk 
report often result in agencies receiving additional management 
resources from Department leadership and the Office of Management and 
Budget (OMB). Has IHS seen increased engagement from the Department of 
Health and Human Services' (DOI's) Office of the Secretary or OMB since 
the High Risk designation? If so, please summarize any evidence of this 
increased engagement.
    Answer. The Office of the Secretary and OMB are actively engaged 
with IHS in addressing the challenges identified by GAO in the High 
Risk report. For example, the IHS resources were prioritized in the FY 
2018 budget request. Further, OMB and HHS have approved use of the Non-
recurring Expenses Fund for IHS to meet key needs in facilities, 
Information Technology (IT) systems and medical equipment. Departmental 
and OMB staff have also toured field facilities, both IHS and tribally-
run, engaging in discussions with tribal leaders, patients and other 
stakeholders about priorities and needs at the local health care 
delivery level. In addition, HHS has assigned personnel with specific 
expertise from other HHS operating divisions to assist IHS in 
addressing risk areas such as health services in the Great Plains Area 
(GPA).

    Question 4. GAO also testified that staff and leadership turnover 
is an overarching issue facing IHS. How is IHS working to ensure all 
administrative duties are fulfilled in the face of frequent turnover?
    Answer. At the local level, when employees provide notice of 
impending departure, IHS works to identify and designate staff to 
assume the duties until the position is filled. More globally, IHS uses 
position management data to identify and track vacancies across IHS to 
identify gaps in administrative functions and services and determine 
both immediate and long-term staffing and recruitment needs. In 
addition, the IHS Area and HQ offices have developed succession plans 
that will aid in identifying immediate, short-term, and long-term plans 
for ensuring staff develop the competencies to potentially serve in 
leadership positions on a temporary or permanent basis for when key 
leadership positions become vacant. IHS is also in the process of 
developing a staff transition planning tool for current leaders to 
provide key position information and institutional knowledge for 
incoming staff. Finally, IHS has developed a leadership training 
program to prepare high performing staff with leadership and 
administrative skills for their own developmental benefit, and also to 
provide IHS with a cadre of trained staff in the event of turnover.

    Question 4a. Given these staffing challenges, how is IHS ensuring 
federally-operated, tribally-operated, and urban-Indian IHS facilities 
receive full support with medical, legal, and financial compliance 
requirements?
    Answer. IHS continues to implement the Quality Framework launched 
in November 2016, which was developed to strengthen organizational 
capacity to improve quality of care, improve our ability to meet and 
maintain accreditation for IHS direct service facilities, align service 
delivery processes to improve the patient experience, ensure patient 
safety, and improve processes and strengthen communications for early 
identification of risks. Inherent in these objectives is ensuring 
compliance with medical, legal, and financial requirements.
    A specific action aimed at assuring accountability is development 
of a system-wide dashboard of performance accountability metrics that 
will demonstrate aspects of compliance with various requirements, 
standards, policy, and guidance. IHS is working with its Area Offices 
and local community facilities to enhance financial reports, and 
estimation capabilities; and is exploring additional IT tools which can 
improve financial reporting, reduce time/effort involved in routine 
financial staff work, and ease the burden on managers at the local, 
Area, and Headquarters levels in accessing financial information and 
identifying mission critical issues.
    Tribes that manage their health care programs under Indian Self-
Determination and Education Assistance Act contracts and compacts are 
responsible for ensuring their programs' compliance with limited 
oversight by IHS. However, IHS provides technical assistance and offers 
some opportunities for tribal programs to participate in to assist them 
in addressing certain requirements. Urban Indian Organizations have 
responsibility for compliance for the programs included in their 
contracts and grants, and IHS has an oversight role to ensure they are 
carrying out the terms of the contracts and grants. In addition, Urban 
Indian Organizations are able to participate in some IHS activities to 
improve compliance such as training provided through the IHS 
Partnerships Conference.

    Question 4b. How is IHS ensuring the Service's staffing efforts 
address the technical skills gaps (e.g., health systems administration) 
identified by GAO?
    Answer. During the first quarter of FY 2017, the IHS conducted a 
skills gap analyses for key positions and developed appropriate level 
developmental programs for those positions. A leadership training 
program has been developed which includes Leadership Training Academies 
for senior level staff and individual development plans to improve the 
competencies and skills required for staff new to leadership roles, 
including rotating staff through Headquarters to provide additional 
training in preparation for future placement in senior level positions.
    An important part of the IHS leadership program includes succession 
planning for key positions and preparing staff to compete for 
leadership positions. Succession plans are updated semi-annually. In 
addition, IHS has initiated a mentoring initiative for those who have 
recently been promoted to key leadership positions. Best practices will 
be identified to expand these types of activities throughout IHS.
School-based Health Clinics
    Question 5. According to your testimony, IHS supports nine direct-
service and eight tribally-operated school-based health clinics. Where 
are these 17 clinics located, and what scope of medical services do 
they provide to the schools they serve?
    Answer. Of the 17 school-based health programs, one is located in 
Alaska; four are located in New Mexico within the Albuquerque Area; two 
are located in Minnesota within the Bemidji Area; two are located in 
the Nashville Area, specifically in Mississippi and North Carolina; one 
program is located in New Mexico within Navajo Area; one program is 
located in Oklahoma; one program is located in Arizona within Phoenix 
Area; and five are located in Arizona within the Tucson Area.
    The scope of health services provided at the schools varies and may 
include clinical services such as dental and pharmacy or behavioral 
health services or both types of services.

    Question 5a. Is IHS aware of any tribal interest in expanding the 
number of these clinics to other schools and communities in Indian 
Country?
    Answer. The IHS has provided school-based health services for many 
years. In general, both IHS and Tribes have been increasingly 
interested in expanding school-based health services and clinics to 
improve access to care for patients who may otherwise not have received 
services for a number of reasons (e.g., lack of transportation). 
Parents and school administrators have also been extremely supportive 
of these types of partnerships and collaborations.

    Question 5b. Is IHS aware of any barriers that might prevent the 
Service from working collaboratively with Bureau of Indian Education 
(BIE) and tribes to open these more of these clinics?
    Answer. In our experience working collaboratively with the BIE and 
Tribes, we have encountered challenges relating to obtaining parental 
consent forms, including those that must be signed by legal guardians, 
and obtaining space for the school-based health services.

    Question 6. What relationship does IHS have with the BIE regarding 
the provision of medical services to Native students attending BIE 
schools and students living in BIE dormitories?
    Answer. The Indian Health Service has had an on-going collaborative 
relationship with the Department of Interior's Bureau of Indian 
Education (BIE). For example, the Navajo Area Office has entered into 
partnership agreements with the BIE to provide services to Native 
students attending BIE Schools and students residing in BIE 
dormitories. Currently, there are seventeen partnerships in place with 
State, tribal, private and BIE schools located in Arizona and New 
Mexico. We are working on collecting additional data regarding the 
scope of services at all school-based health programs where Indian 
Health Service funded services are being provided to Native students.
Unused funds
    On March 28, 2017, IHS issued a ``Dear Tribal Leader'' letter 
addressing concerns of whether the Service returns ``a significant 
amount of unused money to the United States Treasury each year.'' \4\
---------------------------------------------------------------------------
    \4\ Letter from Chris Buchanan, Acting Director, Indian Health 
Service, to Tribal and Urban Indian Organization Leaders (Mar. 28, 
2017) (on file with S. Comm. on Indian Affairs).
---------------------------------------------------------------------------
    Question 6a. For which specific activities/authorized uses did IHS 
have unused funds in FY2011? Please include a description of any 
statutory limitations that govern the use or repurposing of these 
unused funds.
    Answer. Within the lump sum appropriation for the IHS Services 
account, $3.8 million was returned to Treasury when the FY 2011 
appropriated funds officially cancelled. Examples of activities 
included in the Services account include Hospitals and Health Clinics, 
Dental Health, Public Health Nursing, and other preventive and clinical 
services. This appropriation contained annual budget authority meaning 
that the budget authority was only available for new obligations during 
one fiscal year.--The default period of availability for 
appropriations, unless otherwise specified by Congress, is one year. 
Per OMB Circular A-11, annual budget authority can be obligated for the 
expenses of one fiscal year, followed by a five year expired phase 
during which time the budget authority is no longer available for new 
obligations but can be used only for adjustments to obligations 
incurred prior to the expired phase. At the close of that six year 
total period, the funds are considered lapsed and returned to the U.S. 
Treasury. This is standard budget execution practice for similar 
accounts government-wide.

    Question 6b. How does the amount of IHS unused funds compare to the 
amount of unused funds returned by other agencies both within HHS and 
across the Federal Government as a whole?
    Answer. IHS has not performed a comprehensive review of other 
agencies. It is important to note that program administration varies by 
agency and appropriation, and the purpose of the appropriation can be a 
significant factor in an agency's ability to expend the funds within 
the period of availability. For IHS, the service units/health programs 
providing direct patient care have the greatest flexibility for fully 
expending appropriated funds.
                                 "_____
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Michael Black
GAO Reports and Recommendations
    Question 1. The Government Accountability Office (GA0)'s February 
2017 High-Risk Report included several unresolved recommendations for 
the Bureau of Indian Affairs (BIA) to help ensure that Bureau of Indian 
Education (BIE) schools provide safe and healthy facilities for 
students and staff. GAO testified at this Oversight Hearing:
    ``As of April 2017, the agency had not provided documentation that 
the inspection information that its safety personnel collect and report 
to BIE schools is complete and accurate. In addition, our preliminary 
findings from ongoing work since February 2017 point to continued 
problems with Indian Affairs' oversight of safety inspections at BIE 
schools.''
    Despite these remaining Indian Education-related recommendations 
for BIA, your testimony focused exclusively on addressing the remaining 
Indian Energy-related GAO recommendations. Please provide a summary and 
timeline of the Bureau's plans to address each of these unresolved 
recommendations.
    Answer. On July 17, 2017, and August 16, 2017, Indian Affairs (IA) 
and the Department of the Interior's Office of Financial Management 
provided GAO updates on progress on the BIE open recommendations. While 
none of the recommendations have been closed to date, GAO acknowledged 
the progress made and that some of the recommendations are close to 
full implementation.
    Indian Affairs has taken the following actions to address the GAO 
recommendations concerning school safety:

  <bullet> In FY 2016, 100 percent of the BIE schools were inspected, 
        reports were issued and deficiencies were recorded for 
        remediation.

  <bullet> Performance standards for SES Regional Directors and safety 
        personnel were revised in FY 2016 and FY2017 that added 
        specific performance elements and measures to ensure safety 
        inspections are performed annually.

  <bullet> In FY 2017, Indian Affairs established a Safety Work Group 
        to enhance the school safety program and engage all the 
        stakeholders to ensure a successful Indian Affairs integrated 
        safety program.

  <bullet> In FY 2017, policy guidance and handbooks were issued and 
        disseminated to all Indian Affairs personnel responsible for 
        school safety and remediation of the deficiencies.

  <bullet> Indian Affairs tracks monthly safety inspections performed 
        and disseminates the progress to the BIE and BIA Director and 
        Regional Directors.

  <bullet> Indian Affairs is currently developing a mandatory course 
        curriculum for personnel responsible for performing safety 
        inspections.

  <bullet> In FY 2017, BIE stood up their School Safety Office and is 
        continuing to recruit for their vacant positions.

    Question 1a. Has BIA established a process to routinely monitor the 
quality and timeliness of all school inspection reports? If so, please 
provide an explanation of this process.
    Answer. The BIA will amend the 2017 safety performance standards 
for Safety Inspectors to comply with the standards in the recently 
updated Indian Affairs Safety, Health and Accessibility Inspection/
Evaluation Guidelines and the Indian Affairs Fire Systems Inspection, 
Testing and Maintenance Guidelines.
    In addition, the Division of Safety and Risk Management (DSRM), 
BIA, and BIE will develop and formally publish a comprehensive quality 
performance standard for inspection reports and develop a formal and 
uniform process of monitoring the quality of safety inspection reports.
    The BIE and BIA, in coordination with the DSRM, will develop and 
implement comprehensive and uniform Performance Appraisal Plans for all 
Indian Affairs safety personnel in FY 2017, to include a component 
addressing the timeliness of safety inspection reports submission. The 
first-line supervisors will then hold employees accountable based on 
the timeliness data collected by DSRM.

    Question 1b. What controls has BIA put in place to ensure that any 
high-risk safety and health deficiencies identified in school 
inspections are remedied in a timely manner?
    Answer. Office of Facilities, Property, and Safety Management 
(OFPSM through the Division of Facilities Management and Construction 
(DFMC) coordinates with DSRM, BIA and BIE to identify high risk items 
included in safety inspection reports. Once identified, DFMC/OFPSM has 
supplemental funding programs (major and minor Improvement & Repair, 
Emergency, Fire, Environmental) that provide funding for correction of 
high risk safety and health deficiencies. DFMC/OFPSM, in coordination 
with DSRM, BIA and BIE, also prioritizes safety, health and 
accessibility deferred maintenance deficiencies for annual Improvement 
and Repair funding provided to the Regions and Sites. DFMC/OFPSM has an 
established contract for Condition Assessments that also identifies 
safety and health deficiencies and completes any outstanding abatement 
plans during site visits.

    Question 1c. Please provide a summary of how BIA and BIE arc 
working to improve inter-Bureau coordination on safety inspections, 
health and safety issue remediation, and operations/maintenance 
activities.
    Answer. The BIE has worked closely across Indian Affairs, including 
with BIA, in recent months to address outstanding GAO recommendations 
and improve Bureau operations and service delivery in Bureau-funded 
schools. Upon GAO's identification of BIE as a high-risk agency, the 
Bureau coordinated efforts with Indian Affairs to prioritize 
accountability and oversight in order to address GAO recommendations, 
which will increase efficiency and effectiveness.
    Indian Affairs is supportive of the BIE as the agency participates 
in joint work groups specifically created to address outstanding GAO 
recommendations, such as the Indian Affairs Safety Work Group that 
includes participants from BIA. The Work Group held two sessions this 
past summer as a means to increase coordination, develop policies and 
procedures, and address outstanding GAO recommendations. Through the 
Work Group, BIE and BIA staff, alongside DFMC and Indian Affairs, have 
worked together to ensure that safety inspections are 100 percent 
completed for the second year in a row as well as developing policies 
and procedures to make sure quality improves and that supports are in 
place to assist critical staff, such as safety inspectors. The work 
group will plan subsequent meetings for the fall to ensure progress 
continues to be made on coordinated work. Additionally, Indian Affairs 
has formed an initial work group to specifically address financial 
oversight across the agencies. This coordination will diminish 
bureaucratic inefficiencies and promote communication across Indian 
Affairs.

    Question 2. GAO additionally testified that inclusion on the 
biennial High Risk report often results in agencies receiving 
additional management resources from Department leadership and the 
Office of Management and Budget (OMB). Has BIA seen increased 
engagement from the Department of the Interior's (DOI's) Office of the 
Secretary or OMB since the High Risk designation? If so, please 
summarize any evidence of this increased engagement.
    Answer. Yes, as indicated in a previous response, the Department's 
Office of Financial Management has been involved in the July and August 
meetings with GAO. Also, on a monthly and quarterly basis, DIEA 
provides and discusses the status of all GAO and OIG recommendations 
with the Office of Financial Management. Additionally, representatives 
from the Department's Assistant Secretary for Policy, Management and 
Budget attended the July 17, 2017, meeting with GAO and IA senior 
leadership.

    Question 3. Shortly following the conclusion of the May 17th 
Oversight Hearing, GAO released three additional reports regarding BIE 
education-related functions ``Tribal Transportation: Better Data Could 
Improve Road Management and Inform Indian Student Attendance 
Strategies,'' \2\ ``Indian Affairs: Actions Needed to Better Manage 
Indian School Construction Projects,'' \3\ and ``Indian Affairs: 
Further Actions Needed to Improve Oversight and Accountability for 
School Safety inspections.'' \4\ Within these three reports, the GAO 
provided a total of 20 new recommendations to improve the delivery of 
education to BIE students. Please provide a summary and timeline of the 
Bureau's plans to address each of the 20 recommendations directed at 
BIA.
    Answer. BIA provided a 60-day report to GAO and members of Congress 
on August 9, 2017, describing how BIA will partner with stakeholders in 
implementing each of the recommendations and detailing the timelines 
(including dates and responsible persons) for addressing each of the 
recommendations. BIA is also coordinating with the Federal Highway 
Administration (FHWA) and Tribal Transportation Program Coordinating 
Committee (TTPCC) on the proposal for addressing recommendations and 
responses.

    Question 3a. Please provide a summary of the efforts BIA is 
undertaking to work with BIE, and DOI's Office of the Secretary, and 
OMB to ensure the remaining recommendations from these three reports 
are addressed in a timely, effective manner.
    Answer. OFPSM is coordinating with DSRM, BIA and BIE to update 
policies, guidelines, performance plans and provide training for site 
personnel in Safety & Health, Accessibility, O&M services/activities, 
Improvement & Repair and other supplemental program funding guidelines 
and requirements. Training sessions have been posted on relevant 
websites for access by anyone needing training or for refresher 
training.
Staff and Leadership Turnover
    Question 4. When asked about any continuing limitations placed on 
hiring by Administration leadership, you testified that the BIA and BIE 
are subject to certain hiring restrictions depending on vacancy grade-
level and location. How many total vacancies does BIA currently have? 
And, what is the breakdown of these vacancies by type (location, grade 
level, and function)?
    Answer. The Office of Human Capital Management office has 
identified 1,003 vacancies BIA-wide, as of August 15, 2017 (see 
spreadsheet).

    Question 4a. What, if any, limitations put in place by the White 
House, OMB, or DOI's Office of the Secretary exists regarding BIA's 
ability to fill these vacancies?
    Answer. The Departmental Hiring Controls currently allow for the 
filling of vacancies at the GS-1 1 grade level and below located 
outside of the Washington, D.C., and Denver, Colorado, metropolitan 
areas. Hiring for all positions in the Washington, D.C., and Denver, 
Colorado, metropolitan areas is allowed with the granting of a waiver 
by the Secretary's Office.

    Question 5. In its 2017 High RiskReport, GAO identified workforce 
planning- including frequent turnover and high vacancy rates- as an 
overarching issue facing Indian Affairs. For example, several tribally 
operated BIE schools have informally reported to this Committee that 
staffing turnover and vacancies at Education Resource Centers make it 
difficult to receive timely assistance with reporting and compliance 
questions. How is BIA working to ensure all administrative duties are 
fulfilled in the face of these workforce challenges?
    Answer. During workforce planning efforts to address administrative 
duties and technical skill gaps, the BIA conducted a wide-spread review 
of components on optimal human capital levels required in relation to 
the services provided; gaps in talent and performance requirements; 
critical skills, functions and occupations to retain; and positions 
that should/could be eliminated or restructured/re-staffed to meet 
BIA's incremental goals of downsizing and reducing unnecessary 
processes and overlapping and redundant authorities/controls. As a 
result of the review, the BIA identified a need to restructure the 
organization to achieve near-term workforce reductions and allocate the 
resources where the needs are greatest. The BIA plans to consolidate 
programs and functions; realign functions to improve efficiency by 
eliminating overlapping responsibilities from central offices and other 
units where appropriate; relocate or reassign personnel to different 
duty stations and program areas; streamline supervisory staff 
restructure positions to correct skill imbalances and/or develop 
leadership; eliminate positions and functions that are redundant and 
obsolete as a result of automation and changing job competency 
requirements; utilize career ladder positions to establish a balanced 
workforce; and reduce grade levels throughout all locations across all 
the organization. To implement some of these changes, the BIA is also 
requesting the authority to offer Voluntary Separation Incentive 
Payment (VSIP) and Voluntary Early Retirement Authority (VERA). These 
actions and use of these authorities will allow BIA to implement and 
transition to more efficient Regional Office operations along with 
facilitating the effective delivery of services to our customers. They 
will allow the agency to achieve more efficient alignment of mission 
related operations and more consistent management of services across 
the organization.

    Question 5a. How is BIA ensuring the Bureau's staffing plan address 
the technical skill gaps (e.g., real estate management) identified by 
GAO?
    Answer. The BIA conducted a wide-spread review of components on 
optimal human capital levels required in relation to the services 
provided; gaps in talent and performance requirements; critical skills, 
functions and occupations to retain; and positions that should/could be 
eliminated or restructured/re-staffed to meet BIA's incremental goals 
of downsizing and reducing unnecessary processes and overlapping and 
redundant authorities/controls. As a result of the review, the BIA 
identified a need to restructure the organization to achieve near-term 
workforce reductions and to focus resources where the needs are 
greatest. As a result, the BIA plans to consolidate programs and 
functions; realign functions to improves efficiency by eliminating 
overlapping responsibilities from central offices and other units where 
appropriate; relocate or reassign personnel to different duty stations 
and program areas; streamline supervisory staff; restructure positions 
to correct skill imbalances and/or develop leadership; eliminate 
positions and functions that are redundant and obsolete as a result of 
automation and changing job competency requirements; utilize career 
ladder positions to establish a balanced workforce; and reduce grade 
levels throughout all locations across all the organization. To 
implement some of these changes, the BIA is also requesting the 
authority to offer Voluntary Separation Incentive Payment (VSIP) and 
Voluntary Early Retirement Authority (VERA).
Energy
    Question 6. While BIA acknowledged in its testimony that ``a survey 
is an important step in developing a full inventory of trust 
resources,'' it also conceded that the federal government has not yet 
fully surveyed all Indian reservation lands. The BIA stated that 
``cadastral survey inventories are being evaluated and FYI7 survey 
requests have been approved for funding and completion by BLM.'' Has 
BIA identified the extent to which trust lands do not have accurate 
surveys?
    Answer. While there is no inventory of unsurveyed lands, we know 
that there are significant areas of Indian lands that have not been 
surveyed, such as the Navajo reservation and certain tribal lands 
within the Eastern Region's jurisdiction. We have an inventory of 
survey needs identified by the BIA Regions in coordination with BLM, 
that are the result of proposed real estate development projects, 
zoning, trespass issues (boundary establishment), litigation needs and 
legislative mandates.

    Question 6a. Does BIA know what resources are needed to complete 
these surveys?
    Answer. Funding for the line item that covers Real Estate Services 
(RES) projects, including cadastral surveys, is $2.7 million. Our 
inventory of survey needs includes surveys for approximately 5,000 
projects. Funding is also required to fulfill BIA's trust 
responsibility and Fiduciary Trust Model components: BLM Indian Land 
Surveyor program, Certified Federal Surveyor program, Enhance Public 
Lands Survey System in Indian Country, and development of a cadastral-
based geographic information system.

    Question 6b. Please list and describe the FYI7 survey requests that 
have been approved for funding and completion by BLM.
    Answer. BLM has approved for funding and completion the surveys 
mandated by the Nevada Native Nations Land Act (NNNLA), which required 
the new trust lands (70,000 acres) for the tribes involved in the NNNLA 
to be surveyed in 18 months (i.e., by the end of FY18).

    Question 7. When asked about GAO's finding that BIA did not have a 
documented process or the data needed to track its review and response 
times, the BIA stated that its experts are working to modify TAAMS. BIA 
further explained that these modifications may incorporate ``the key 
identifiers and data fields needed to track and monitor review and 
response times for oil and gas leases and agreements.'' BIA mentioned 
taking steps to track and monitor oil and gas leases and agreements. Is 
the agency also taking steps to track and monitor other energy-related 
documents that must be reviewed by BIA, such as ROW agreements?
    Answer. Yes. Rights-of-way are being tracked and monitored, a 
process that was implemented on April 21, 2016, the effective date of 
the revised 25 CFR Part 169 regulations. The revised Part 169 
regulations impose deadlines for BIA action on requests for rights-of-
way.

    Question 7a. Is the agency taking steps to track and monitor 
documents related to environmental reviews, like those associated with 
the National Environmental Policy Act, the Endangered Species Act, and 
the National Historic Preservation Act?
    Answer. The agency tracks environmental reviews under NEPA through 
the NEPA Tracker, a central repository for tracking NEPA Actions across 
the organization. The system standardizes the NEPA action tracking 
process, improves data call efficiency, makes the NEPA action process 
more transparent, improves NEPA Action data analytics, and minimizes 
impacts of data calls. NEPA Coordinators are required to enter all NEPA 
Actions into the NEPA Tracking System, effective September 1, 2012.

    Question 8. The BIA also stated that it is in the process of 
evaluating and reviewing the current realty tracking system and TAAMS 
to improve efficiencies and timeliness in processing workloads. Yet, 
because multiple entities within the Department must review 
modifications to data systems, BIA intends to ask GAO for an extension 
of time to address this recommendation. With what other entities must 
the Department coordinate when reviewing the proposed modifications?
    Answer. TAAMS enhancements are programmed and implemented after 
approval by the TAAMS Change Management Board. The Board has authority 
to approve the change. If, however, the enhancement is a major 
development, it must be approved by the Department's Chief Information 
Officer.

    Question 9. The GAO recommended that DOI provide additional energy 
development specific guidance on provisions of TERA regulations that 
tribes have identified to the Department as unclear. \6\ The BIA 
testified that the Department, through the Office of Indian Energy and 
Economic Development, will issue guidance on those provisions of TERA 
that tribes identified as unclear. Will the guidance include 
clarification for ``inherently federal functions''?
    Answer. The Office of Indian Energy and Economic Development (IEED) 
has placed on its web site for tribal review a description of the 
technical assistance it will furnish tribes that are interested in 
programs, functions, services and activities (PFSAs) associated with 
the TERA regulations that Tribes can contract for under the Indian 
Self-Determination and Education Assistance Act, and PFSAs associated 
with the TERA regulations that the Interior Secretary must perform: 
https://www.bia.gov/as-ia/ieed/division-energy-and-mineral-development/
tribal-toolbox/demd-and-office-of-solicitor
    To further clarify the TERA approval process, IEED plans to 
collaborate with the Department's Office of the Solicitor during 
calendar year 2018 to publish as part of IEED's ongoing online series 
``Tribal Economic Development Principles at a Glance,'' a primer on the 
TERA approval process.
    Past IEED primers can be accessed at; https://www.bia.gov/as-ia/
ieed/online-primers-economic-development-glance.

    Question 9a. What other provisions does the Department intend to 
include in the proposed guidance?
    Answer. Because ``inherently federal functions'' can only be 
defined on a case-by-case basis, it is not possible to compile any kind 
of list of these functions or provide meaningful examples. IEED is 
inviting tribes to query the office on these issues as they arise from 
real-world circumstances. The GAO report also identifies as ``unclear'' 
what happens when tribal regulations enacted pursuant to a TERA 
conflict with federal regulations. TEED would work with the Solicitor 
to provide a response based on the particular circumstances of each 
specific inquiry on this matter.

    ENDNOTES
        1 U.S. Gov't Accountability Office, GAO-1 7-317, High Risk 
        Series: Progress on Many High-Risk Areas, While Substantial 
        Efforts Needed on Others (2017).
        2 U.S. Gov't Accountability Office, GA0-17-423, Tribal 
        Transportation; Better Data Could Improve Road Management and 
        Inform Indian Student Attendance Strategies (2017).
        3 U.S. Gov't Accountability Office, GA0-17-447, Indian Affairs: 
        Actions Needed to Better Manage Indian School Construction 
        Projects (2017).
        4 U.S. Gov't Accountability Office, GA0-17-421, Indian Affairs: 
        Further Actions Needed to Improve Oversight and Accountability 
        for School Safety Inspections (2017).
        5 U.S. Gov't Accountability Office, GA0-17-317, at 216.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                              Tony Dearman
    Question. Mr. Dearman, in your testimony, you set mid-2019 as a 
goal to implement two recommendations from a 2014 report, which is five 
years later. What is the holdup?
    Answer. These recommendations should have been addressed in a more 
timely fashion. Since taking leadership of the Bureau of Indian 
Education (BIE) in November 2016, 1 have assessed our Government 
Accountability Office-related work to date. BIE leadership has not been 
satisfied with either the quality or the timeliness of the work 
performed to analyze the GAO recommendations. As a result, I have 
directed BEE senior leadership to prioritize implementing all 
outstanding GAO recommendations as quickly as possible. While I 
understand the timeframe for comprehensively addressing BIE's 
outstanding GAO recommendations, including the recommendations you 
highlight, has been extended, I believe it is prudent that the bureau 
continue to work toward timely and effectively addressing GAO's 
recommendations and we are doing so, as discussed in my testimony for 
this hearing.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Tony Dearman
    Question. As you may know, Nevada has two BIE schools: Duckwater 
Shoshone Elementary School and Pyramid Lake Junior/Senior High School. 
We are all very proud of all or our students, teachers, administrators, 
and parents. We want the very best for them, and they deserve the very 
best your department has to offer. Director Dearman, in your written 
testimony you mentioned that your office is diligently working to 
address the varying and developing needs of students, including 
behavioral and mental health support services. Can you please talk 
further about this partnership with Indian Health Service (IHS) and how 
you are planning to overcome some of the IHS limitations outlined in 
the report?--Can you elaborate on your strategic plan to collaborate 
with local emergency medical services and law enforcement to ensure the 
safety and wellbeing of students and staff in school?
    Answer. In December 2016, BIE, IHS, and Bureau of Indian Affairs 
(BIA), entered into an Inter-agency Agreement intended to increase 
access to mental and behavioral health services for students attending 
BIE schools and youth detained in Office of Justice Services (OJS) 
facilities. The Agreements allow each agency to establish local 
partnerships through a Memorandum of Agreement (MOA) between IHS 
federally-operated mental health programs, BIE-operated elementary and 
secondary schools, and BIA OJS-operated juvenile detention centers to 
provide mental health assessment and counseling services, which 
includes tele-behavioral health services.
    Under this 10-year partnership, behavioral health services will be 
offered at BIE schools and OJS facilities that are located near an 
available IHS facility. Key staff, including our Student Health Program 
Specialist, are partnering within the agencies under a National 
Implementation Team tasked with identifying key contacts to create 
Regional and Local Implementation Teams. This new collaboration is 
intended to ensure that the mental and behavioral health needs of our 
students are being met.
    BIE is also collaborating with OJS to provide comprehensive law 
enforcement oversight for schools. This includes strategic program 
direction, development of related policies, procedures, standards and 
guidelines, and program accountability and consistency. In January 
2017, BIE began working through the partnership to provide expert law 
enforcement guidance and direction to local law enforcement officials, 
school administrators, and tribal leaders in response to criminal 
matters or emergencies that occur on tribal school campuses or within 
the immediate vicinity of a tribal school.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Tony Dearman
GAO High-Risk Report and Recommendations
    Question 1. The Government Accountability Office (GAO) testified 
that inclusion on the biennial High Risk report often results in 
agencies receiving additional management resources from Department 
leadership and the Office of Management and Budget (OMB). Has the 
Bureau of Indian Education (BIE) seen increased engagement from the 
Department of the Interior's (DOI's) Office of the Secretary or OMB 
since the Bureau's High Risk designation? If so, please summarize any 
evidence of this increased engagement.
    Answer. Upon GAO's identification of BIE as a high-risk agency, the 
Department has worked closely with the Bureau as it prioritizes 
accountability and oversight in order to address GAO recommendations, 
which will increase efficiency and effectiveness.
    The Department is supportive of the BIE as it participates in work 
groups specifically created to address GAO recommendations, such as the 
Indian Affairs Safety Work Group (Safety Work Group) that includes 
participants from the Assistant Secretary-Indian Affairs (Indian 
Affairs) office, Bureau of Indian Affairs (BIA), and Division of 
Facilities Management and Construction (DFMC). The Safety Work Group 
has held two workgroup sessions this summer as a means to increase 
coordination, develop policies and procedures, and address outstanding 
GAO recommendations in reports GA0-16-313 and GA0-17-421.
    The Department has also provided BIE support as it works to 
increase its direct communication with GAO, which has enhanced BIE's 
ability to comprehensively address outstanding recommendations. It is 
the Department's goal that BIE is effective in addressing GAO 
recommendations as well as coordinating effectively across Federal 
agencies in order to improve BIE accountability and oversight. As such, 
the BIE has had consistent contact and works closely with senior 
leadership within the Department and the Secretary's office to ensure 
matters highlighted in GAO reports, particularly those critical to 
directly improving the wellness and safety of students in Bureau-funded 
schools, are properly addressed in a timely manner.

    Question 2. A number of the outstanding recommendations for 
improving Indian Education included in GAO's February 2017 High-Risk 
Report require action by the Bureau of Indian Affairs (BIA) to fully 
resolve. \1\ Your testimony provided an outline of BIE's efforts to 
address these remaining recommendations that included references to 
``working cooperatively with the leadership within Indian Affairs.'' 
Yet, Mr. Black's testimony focused exclusively on addressing the 
remaining Indian Energy recommendations flagged by GAO in the 2017 High 
Risk Report. Has BIE seen increased engagement from BIA leadership 
regarding its role in resolving the remaining GAO recommendations 
regarding financial oversight and safety inspections? If so, please 
summarize any evidence of this increased engagement.
    Answer. The BIE has worked closely across Indian Affairs, including 
BIA, in recent months to address outstanding GAO recommendations and 
improve Bureau operations and service delivery in Bureau-funded 
schools. Upon GAO's identification of BIB as a high-risk agency, the 
Bureau coordinated efforts with Indian Affairs to prioritize 
accountability and oversight in order to address GAO recommendations, 
which will increase efficiency and effectiveness.
    Indian Affairs is supportive of the BIE as it participates in joint 
work groups specifically created to address outstanding GAO 
recommendations, such as the Indian Affairs Safety Work Group (Safety 
Work Group) that includes participants from BIA. The Work Group held 
two workgroup sessions this past summer as a means to increase 
coordination, develop policies and procedures, and address outstanding 
GAO recommendations. Through the Safety Work Group, BIE and BIA staff, 
alongside DFMC and Indian Affairs, have worked together to ensure that 
safety inspections are 100 percent completed for the second year in a 
row as well as to develop policies and procedures to make sure quality 
improves and supports are in place to assist critical staff, such as 
safety inspectors. The Safety Work Group will plan subsequent meetings 
to progress coordinated work. Additionally, Indian Affairs has formed 
an initial work group specific to address financial oversight across 
the agencies. This coordination will diminish bureaucratic 
inefficiencies and promote communication across Indian Affairs.

    Question 3. Shortly following the conclusion of the May 176 
Oversight Hearing, GAO released three additional reports regarding the 
BIE--``Tribal Transportation: Better Data Could Improve Road Management 
and Inform Indian Student Attendance Strategies,'' \2\ ``Indian 
Affairs: Actions Needed to Better Manage Indian School Construction 
Projects,'' \3\ and ``Indian Affairs: Further Actions Needed to Improve 
Oversight and Accountability for School Safety Inspections.'' \4\ 
Within these three reports, the GAO provided a total of 20 new 
recommendations to improve the delivery of education to BIE students. 
Please provide a summary and timeline of the Bureau's plans to address 
each of the 20 recommendations directed at BIE.
    Answer. The reports provide ten additional recommendations that BIE 
must address unilaterally. The other findings, due to agency authority, 
are directed to other entities within Indian Affairs, or must be 
addressed by a combination of these entities. BIE now has 21 total 
outstanding recommendations from past GAO reports as well as those 
issued in 2017 that it must address.
    In reference to the reports mentioned, BIE worked directly with 
Indian Affairs through the aforementioned work groups to provide formal 
updates to GAO on August 8, 2017, and August 16, 2017. The three 
enclosed letters (DOL 60-Day Letter to GAO Report 17-421 IA School 
Safety; DOI 60-Day Letter to GA0-17-423 Tribal Transport; and DOI 60 
Day Letter to GAO Report 17-447 IA School Construction) provide 
responses to each new GAO recommendation as well as timelines and 
bureau authority for associated work to be completed.

    Question 3a. Please provide a summary of the efforts BIE is 
undertaking to work with BIA, and DOI's Office of the Secretary, and 
OMB to ensure the remaining recommendations from these three reports 
are addressed in a timely, effective manner.
    Answer. BIE worked directly with Indian Affairs to provide updates 
to GAO on August 8, 2017 and August 16, 2017. The three enclosed 
letters (DOI 60-Day Letter to GAO Report 17421 IA School Safety; DOI 
60-Day Letter to GA0-17-423 Tribal Transport; and DOI 60 Day Letter to 
GAO Report 17-447 IA School Construction) provide responses to each new 
GAO recommendation as well as timelines and Bureau authority for 
associated work to be completed.
Staff and Leadership Turnover
    Question 4. When asked about any continuing limitations placed on 
hiring by Administration leadership, you testified that the BIE is 
currently ``hiring at all levels.'' Yet, this response is at odds with 
statements made by DOI's Office of Budget staff at a May 6, 2017 
Committee Briefing and an April 12, 2017 memorandum issued by Associate 
Deputy Secretary James Cason. Please clarify your claim that BIE is 
``hiring at all levels'' in light of the previously noted May 6 
statements and April 12 memorandum.
    Answer. On April 14, 2017, a DOI memorandum provided Department 
guidance to agencies and bureaus regarding updated hiring controls, 
detailing that:

  <bullet> Bureaus and offices could proceed with lateral reassignments 
        or details, except for Senior Executive Service positions.

  <bullet> Bureaus and offices could proceed with hiring for all 
        positions, outside Washington, DC and Denver, Colorado, at the 
        grade of GS-11 and below.

  <bullet> Bureaus and offices could proceed with hiring for positions 
        above GS-11 and within Washington, DC and Denver, Colorado if 
        provided a waiver based on how such positions will better 
        support on-the-ground mission delivery.

    With regard to BIE hiring, the agency continues to hire at all 
levels consistent with the guidance provided by the Department. The 
Department-specific hiring controls also do not affect contract 
positions funded by the BIE, such as school level teachers. As such, 
students incur no major disruptions in access to instruction. After the 
initial hiring freeze, the Bureau has worked consistently and 
cooperatively with Department leadership in obtaining hiring waivers 
for filling critical, non-field positions at all levels. For example, 
the Department provided BIE clearance on August 14, 2017 to hire, or 
clarify further the need to hire, 39 vacant positions above GS-1 1 as 
well as in various duty locations that are critical to improving 
service delivery. Clearance has been provided to hire additional 
positions since August. The Bureau continues to coordinate with 
Department leadership to acquire waivers for any remaining vacancies.

    Question 4a.a. How many total vacancies does BIE currently have? 
And, what is the breakdown of these vacancies by type (location, grade 
level, and function)?
    Answer. At the time of the hearing, the BIE was 42 percent fully 
staffed with 134 positions filled out of a total of 316 positions 
(waivers pending), Bureau-wide. Such positions include those in the BIE 
Director's Office (Central Office), School Operations Division, 
Division of Performance and Accountability, Associate Deputy Director--
Tribally-Controlled Schools, Associate Deputy Director--Bureau-Operated 
Schools, and Associate Deputy Director--Navajo Schools. Since May 2017, 
the Bureau is nearly 46 percent fully staffed with hiring continuing to 
improve service delivery.

    Question 4b. What, if any, limitations put in place by the White 
House, OMB, or DOI's Office of the Secretary exists regarding BIE's 
ability to fill these vacancies?
    Answer. As noted in a previous response, the agency continues to 
hire at all levels consistent with the guidance provided by the 
Department. In addition, the Department-specific hiring controls did 
not affect contract positions funded by the BIE, such as school level 
teachers. As such, students incurred no major disruptions in classroom 
instruction. After the initial hiring freeze, the Bureau has worked 
consistently and cooperatively with Department leadership in obtaining 
hiring waivers for filling critical, non-field positions at all levels.

    Question 5. In its 2017 High Risk Report, GAO identified staffing 
turnover as an overarching issue facing Indian Education.' For example, 
several tribally operated BIE schools have informally reported to this 
Committee that staffing turnover and vacancies at Education Resource 
Centers (ERCs) make it difficult to receive timely assistance with 
reporting and compliance questions. How is BIE working to ensure all 
administrative duties are fulfilled in the face of frequent turnover?
    Answer. A major goal of the BIE is to identify, recruit, develop, 
retain, and empower highly-effective employees at all levels. However, 
obstacles, such as limited access to housing as well as duty stations 
located in geographically isolated and impoverished communities 
continue to impact employee recruitment. While vacancies do persist, 
the BIE has not experienced exceedingly high turnover rates at its 
ERCs--only one employee has separated (June 30, 2017) since January 1, 
2016. However, as the Bureau continues to fill positions, the BIE is 
working to streamline hiring practices where possible to increase 
recruitment as well as ensure existing staff have the administrative 
support from Central Office to perform their duties effectively.
    BIE Central Office, as part of its GAO related work, is developing 
its comprehensive strategic planning effort to set agency priorities 
and focus energy and resources to ensure employees are working toward 
common goals. It is critical that BIE employees are focused on outcomes 
and results that will help the agency provide improved service 
delivery, technical assistance, and oversight regardless of staffing 
levels. Such strategic planning work will also assist the agency as it 
develops a comprehensive workforce plan that addresses such vacancies 
and focuses human capital where needed to ensure Bureau-funded schools' 
needs are effectively addressed in a timely manner. Human capital 
capacity has historically been an issue for the BIE, so even as the 
agency works to hire positions to expand such capacity, the agency is 
working to formalize plans that will also address retention through 
professional development and standard appraisal metrics.

    Question 5a. How is BIE ensuring federally-operated and tribally-
operated Bureau schools receive full support with legal and financial 
compliance requirements (e.g., completion of annual audits and 
Individuals with Disabilities Education Act compliance)?
    Answer. The BIE is working to ensure existing staff have the 
administrative support from Central Office to perform their duties 
effectively as well as ensure employee appraisal metrics increase 
employee accountability. BIE leadership has tasked management across 
the Bureau with improving the alignment of appraisal metrics with the 
services for which employees are tasked to provide, such as assisting 
in financial compliance, providing technical assistance, and assisting 
with completion of annual audits. These metrics are critical to 
reducing waste, fraud, and abuse and utilizing public tax dollars as 
efficiently and effectively as possible.
    In addition, BIE is hiring additional budget personnel and fiscal 
auditors to assist in compliance, and is developing a school visit 
coordination and information sharing policy that establishes formal 
procedures for fiscal monitoring and requiring coordination among BIE 
staff. This will improve technical assistance through regular, on-site 
audits based on risk elements for federal funding distribution and 
financial compliance. As part of any risk matrix, such policies and 
procedures will not alleviate or address all risk but will formalize a 
protocol for diminishing such risk through coordinated School 
Intervention Teams from Bureau ERCs and Division of Performance and 
Accountability staff who work with schools to address areas of greatest 
need.

    Question 5b. How is BIE ensuring the Bureau's staffing plan 
addresses technical skills gaps (e.g., financial audit expertise) 
identified by GAO?
    Answer. As part of the BIE's reorganization, the BIE is working to 
increase its capacity and narrow its technical skills gap for financial 
oversight and fiscal monitoring. Accordingly, the Bureau has 
prioritized hiring of fiscal monitors, such as auditors and budget 
personnel. The BIE has advertised such positions for hiring to increase 
capacity to address such gaps. Among other areas, another focus has 
been increasing data-driven decisionmaking across the Bureau through 
improved data collection. The Bureau is working to hire several 
Education Research Analysts and three Native American Student 
Information System (NASIS) positions that will improve the Bureau's 
collection and use of key data metrics critical to informed 
decisionmaking that addresses areas of greatest need.
BIE School Accountability
    Question 6. The most recent school and Bureau accountability data 
provided on the BIE website dates to SY2012-2013. \6\ The Committee is 
unaware of any other locations where the Bureau might have published 
accountability data for the three school years completed sinceSY2012-
2013 concluded and required under Section 1111 of the Elementary and 
Secondary Education Act through August 1, 2016: \7\ Please provide a 
copy of all statutorily required school accountability data for SY 
2013-2014, SY 2014-2015, and SY 2015-2016.
    Answer. The Bureau is working to update and post some of the 
additional, required public reporting on school accountability. 
However, most information has not yet been aggregated and remains 
partially incomplete. Recently, leadership has refocused attention to 
increasing data-driven decisionmaking across the Bureau through 
improved data collection. As mentioned previously, the Bureau is 
working to hire several Education Research Analysts and three NASIS 
positions specifically focusing on data that will improve the Bureau's 
collection and use of key data metrics critical to supporting the needs 
of students attending BIE-funded schools.

    Question 6a. Please provide an overview of how BIE ensures parents, 
tribes, and Congress has timely access to this information.
    Answer. The BIE has hired personnel to serve as the Communication 
Specialist to address and update communication outlets going forward. 
It is critical that the Bureau is transparent and efficient in 
delivering information, and this is a key component to achieving this 
goal. The BIE is working with an ED contractor, the Center for 
Standards and Assessment Implementation (CSAI), to develop procedures 
to ensure timely data collection and reporting take place, which will 
then be externally communicated to stakeholders.

    Question 6b. Does BIE have any other student outcome related data 
(e.g., graduation rate trends, absenteeism trends, etc.) that it can 
share with the Committee? If so, please provide it here or provide a 
firm timeline of when such information can be made available to the 
Chairman and the Vice Chairman.
    Answer. As noted in response to a previous question, the Bureau is 
working to bring recent data sets up to date. Currently, an analysis of 
longitudinal data trends is unavailable until such data strands are 
collected and verified. However, the Bureau has enclosed the following 
2015 Bureau of Indian Education Report on Student Achievement and 
Growth from the Northwest Evaluation Association for the Committee's 
review. Its results suggest that BIE students have shown some 
improvements over time in achievement and growth rates, most notably in 
mathematics and for students attending earlier grade levels. However, 
gaps persist and BIE remains committed to improving service delivery 
that will help narrow the gap for students attending Bureau-funded 
schools.

    Question 7. Title I of theEvery Student Succeeds Act (ESSA) 
requires states to design and implement an accountability system to 
measure school quality and performance in consultation with a variety 
of stakeholders. \8\ The Department of Education (ED) indicates on its 
website that BIE, acting in its capacity as the State Education Agency 
(SEA) for BIE-funded schools, provided notice of intent to submit its 
state accountability plan to ED on September 18, 2017. \9\ Yet, as on 
the date of this hearing, the BIE's webpage on the Bureau's ESSA State 
Plan is completely blank. \10\ What is the status of the BIE state 
plan? Please provide a summary of any BIE's coordination between BIE 
and ED on this issue and a description of all relevant consultations 
undertaken by BIE to date on development of a state accountability 
plan.
    Answer. While ED officials have expressed a view that the BIE is 
not required to submit a State Plan under ESSA, BIE Director Dearman 
announced that the BIE would develop a State Plan as a means to 
facilitate a transition to ESSA requirements and ensure the development 
of a coherent federal education system across the 23 states in which 
BIE facilities operate. The BIE notified ED via email on January 7, 
2017 that it would submit a State Plan. However, many of the elements 
of the plan would relate to standards, assessments, and accountability, 
and BIE is required by the ESEA to conduct negotiated rulemaking to 
establish standards, assessments, and an accountability system that is 
consistent with the ESSA changes to the ESEA.
    As the Department works to establish the Negotiated Rulemaking 
Committee outlined below to negotiate and develop a proposed rule, in 
accordance the Negotiated Rulemaking Act, timelines have had to shift 
to provide adequate time for review by the Administration. 
Nevertheless, work on the State Plan continues as a means for 
addressing a key part of the BIE Strategic Plan for improving student 
outcomes and increasing coordination across BIE-funded schools. Once 
drafted, BIE will engage stakeholders, including tribal community 
members, school personnel, and parents, to provide input. Formal tribal 
consultation will take place following the stakeholder engagement phase 
to ensure tribes have a document for which to provide comments and have 
meaningful consultation.
    Additionally, BIE continues to have a close and consistent working 
relationship with ED through the interagency collaborative work group 
that meets bi-weekly. Through this coordination, BIE and ED have 
entered into an interim Memorandum of Understanding that ensures ED 
Title funding continues to support BIE students for SY 2017-18.

    Question 7a. Please provide an overview of BIE's efforts to comply 
with ESSA as a whole and outline how the Bureau has worked with ED to 
ensure full compliance moving forward.
    Answer. To meet its obligations, the BIE will: (1) amend its 
existing standards, assessments, and accountability regulations through 
negotiated rulemaking, and (2) solicit stakeholder and tribal input 
through consultation regarding the BIE State Plan. The BIE has elected 
to adopt a State Plan that will work to improve the BIE's support of 
Bureau-funded schools. Through tribal consultation and solicitation of 
stakeholder feedback, the BIE will ensure ESSA requirements are met.
    Section 8204(c), as amended by the ESSA, directs the Secretary of 
the Interior, through negotiated rulemaking, to update the BIE 
standards, assessments, and accountability system. On November 9, 2015, 
the BIE published a notice of intent (80 FR 69161) requesting comments 
and nominations for tribal representatives for the Negotiated 
Rulemaking Committee (Committee). During transition, the initial 
formulation of the Committee was postponed in order to provide incoming 
Department staff adequate time to review prior work. In August 2017, 
the BIE was provided clearance to move forward with re-initiating the 
Committee and working and consulting with stakeholders to determine 
membership and subsequent steps. More information is forthcoming 
regarding timing of the notice that will clarify consultation, 
membership, meeting dates, and other pertinent information.
    Ultimately, the Committee will recommend revisions to the existing 
regulations (25 CFR Part 30) to replace the NCLB Adequate Yearly 
Progress regulatory language and implement the Secretary's statutory 
responsibility to define the standards, assessments, and accountability 
system, consistent with ESSA. BIE continues to have a close and 
consistent working relationship with ED through the interagency 
collaborative work group that meets bi-weekly to ensure full compliance 
with ESSA. The BIE and ED consult frequently on a range of topics and 
direct communication includes electronic and telephonic correspondence.
School-based Health Clinics
    Question 8. RADM Chris Buchanan's testified that IHS supports nine 
direct-service and eight tribally-operated, school-based health 
clinics. His testimony provides no details as to whether these clinics 
are located in schools operated by Local Education Agencies (LEAs) or 
by the BIE. Are any of these 17 health clinics located in 131E schools? 
If so, please provide a list of those schools.
    Answer. The BIE Student Health Program Specialist conducted site 
visit assessments of BIE-funded schools in the fall of 2017 to 
determine what health and behavioral health services were being 
provided by the Indian Health Service (IHS). IHS has identified several 
131E schools as pilot sites for school-based health clinics. BIE is 
excited to collaborate with IHS to establish school-based clinics so 
critical health and behavioral health services are provided to our 
students.
    In December 2016, the Indian Health Service (INS) and BIE entered 
into an inter-agency agreement intended to increase access to mental 
and behavioral health services for students attending BIE-funded 
schools. This 10-year partnership allows each agency to build up local 
partnerships through Memoranda of Agreement (MOA) among local IHS 
mental health programs and BIE-funded schools in order to provide on-
site mental health assessment and counseling services to BIE students. 
For information regarding general school-based health clinics as well 
as the MOA work, BIE recommends the Committee work with IHS, the 
designated lead agency, for further clarification.

    Question 8a. Is BIE aware of any IHS-supported school-based health 
clinics previously operating on a BIE school or dormitory campus?
    Answer. The BIE defers to IHS, as lead agency, for further 
clarification and information regarding general school-based health 
clinics as well as the MOA work.

    Question 9. This Committee has heard from several tribes and BIE 
school community members from several different parts of Indian Country 
who are interested in opening IHSsupplemented school-based health 
clinics in a BIE-funded school or dormitory. However, representatives 
from these tribes and communities report that regional BIE leadership 
rejected the idea. Is BIE aware of any requests by tribes to open IHS-
supported school-based health clinics within a BIE-funded school or 
dormitory? If so, please provide any pertinent information relating to 
such requests (e.g., date request was received, name of the BIE line 
office/resource center that received the request, and BIE's response to 
the request).
    Answer. As IHS and BIE coordinate and work together under the MOA 
to better support onsite services to BIE students, BIE leadership has 
been supportive of such work and is unaware of the aforementioned 
outreach. The Bureau will work with its management team to determine if 
such requests were made and, if so, what actions were taken in 
response. We look forward retrieving more information and providing an 
update when possible.

    Question 9a. What barriers--if any--exist to BIE working 
collaboratively with tribes and IHS to open these clinics? For example, 
would BIE have concerns about liability or operations/maintenance 
expenses of the clinic space?
    Answer. There may be barriers, which vary by facility depending on 
the availability of local medical staff, space at the school facility, 
current state of local partnerships (BIE/IHS, tribe, and school), as 
well as unique issues faced by personnel, such as community support. 
Additional barriers include the dissemination/sharing of sensitive 
student/patient data and significant communications issues at the local 
site level. Despite these and future barriers that may develop, BIE is 
dedicated to ensuring that the health and behavioral health needs of 
our students are met.

    Question 9b. Can BIE provide any suggestions to overcoming those 
barriers identified above?
    Answer. BIE is committed to working with its partners, including 
IHS, to provide technical assistance and support to schools. This 
workgroup would also provide annual updates and progress reports as 
necessary. BIE will also conduct a comprehensive needs assessment and 
thorough investigation of the current state regarding school-based 
health clinics and associated barriers/solutions. In addition, BIE has 
established a new position to further assist with the coordination of 
student behavioral health and has hired a Student Health Program 
Specialist.
Medicaid Funding in BIE Schools
    Question 10. In general, the Medicaid Program allows school 
districts to provide Early Periodic Screening Diagnosis and Treatment 
(EPSDT) services and allows the schools to directly bill the Program 
for medically necessary services related to Individual Education Plans 
(IEPs). Does BIE coordinate with states and/or the Center for Medicaid 
Services (CMS) to receive allowable reimbursements for delivery of 
these services? If so, please provide a summary of how BIE interacts 
with the Medicaid Program and an estimate of the level of Medicaid 
funding received by the Bureau.
    Answer. BIE is aware that while some Bureau-funded schools have 
worked through the process of directly billing Medicaid for services, 
the agency itself has not done an adequate job of providing 
professional development for such interaction with the Medicaid 
program. The process can be cumbersome and capacity at various schools 
differs. The Bureau will work as part of its strategic planning to 
include the development of a formal policy and associated procedure as 
a means for collecting data and improving the health and welfare of 
BIE-funded students. Because this currently takes place on a local 
level, the Bureau does not have adequate data to present at this time.

    ENDNOTES
        1 U.S. Gov't Accountability Office, GA0-17-317, High Risk 
        Series: Progress on Many High-Risk Areas, While Substantial 
        Efforts Needed on Others (2017).
        2 U.S. Gov't Accountability Office, GA0-17-423, Tribal 
        Transportation: Better Data Could Improve Road Management and 
        Inform Indian Student Attendance Strategies (2017).
        3 U.S. Gov't Accountability Office, GA0-17-447, Indian Affairs: 
        Actions Needed to Better Manage Indian School Construction 
        Projects (2017).
        4 U.S. Gov't Accountability Office, GA0-17-421, Indian Affairs: 
        Further Actions Needed to Improve Oversight and Accountability 
        for School Safety Inspections (2017).
        5 U.S. Gov't Accountability Office, GA0-17-317, at 205.
        6 School Report Cards, BUREAU OF INDIANEDUCATION https:/
        bie.edu/HowAreWeDoing/Scorecardsindexhtm (accessed on May 17, 
        2017)
        7 Every Student Succeeds Act, Pub. L. No. 1 14 -95,  5(e) (1) 
        (A), 129 Stat. 1802, 1806 (20 15).
        8 Every Student Succeeds Act. Pub. L. No. 114-95.  1000 et 
        sec.. 129 Stat. 1802, 1814-1913 (2015).
        9 ESSA State Plan Notice of Intent to Submit, U.S. 
        DEP'TOFEDUCATION

                                  <all>
</pre></body></html>
